<html>
<title> - ENSURING THE 2020 CENSUS COUNT IS COMPLETE AND ACCURATE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                     ENSURING THE 2020 CENSUS COUNT

                        IS COMPLETE AND ACCURATE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 3, 2020

                               __________

                           Serial No. 116-127

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                            ______                       

              U.S. GOVERNMENT PUBLISHING OFFICE 
42-594 PDF             WASHINGTON : 2021                              
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Rapallo, Staff Director
                       Peter Kenny, Chief Counsel
                          Amy Stratton, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------    
                                 
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on December 3, 2020.................................     1

                               Witnesses

J. Christopher Mihm, Managing Director, Strategic Issues, 
  Government Accountability Office
    Oral Statement...............................................     5
Robert Santos, Vice President and Chief Methodologist, Urban 
  Institute; and President-Elect, American Statistical 
  Association
    Oral Statement...............................................     6
Joseph Salvo, Chief Demographer, Population Division, New York 
  City Department of City Planning
    Oral Statement...............................................     8

* The prepared statements for the witnesses are available at:  
  docs.house.gov.


                           INDEX OF DOCUMENTS

                              ----------                              

The document below is available at: docs.house.gov.

  * Letter to Secretary Ross from the Department of Commerce; 
  submitted by Chairwoman Carolyn Maloney.


                     ENSURING THE 2020 CENSUS COUNT

                        IS COMPLETE AND ACCURATE

                              ----------                              


                       Thursday, December 3, 2020

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 10:12 a.m., via 
Webex, Hon. Carolyn B. Maloney [chairwoman of the committee] 
presiding.
    Present: Representatives Maloney, Norton, Connolly, 
Krishnamoorthi, Raskin, Khanna, Sarbanes, Welch, Kelly, 
DeSaulnier, Lawrence, Plaskett, Gomez, Pressley, Tlaib, Comer, 
Jordan, Gosar, Massie, Hice, Grothman, Palmer, Cloud, Higgins, 
Miller, and Keller.
    Chairwoman Maloney. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    And I just want to note at the outset that the Democratic 
side, we have a caucus going on right now, and we're expecting 
two sets of votes for leadership and committee races. When 
those votes happen, we will recess very briefly to allow our 
members to vote, and then reconvene the hearing as soon as the 
votes are done.
    At the moment, we expect the first caucus vote to be around 
10:30 or 10:45, and the second vote to be around 11:45, or 
noon. I ask that the witnesses and members bear with us as we 
recess briefly for these two votes.
    With that, I now recognize myself for an opening statement.
    Good morning, and thank you all for being here today.
    Today's hearing comes at a perilous time for the 2020 
Census. Last month, there were troubling press reports 
indicating that career officials at the Census Bureau warned 
the Trump administration about significant problems that will 
delay the delivery of Census data to late January or early 
February.
    After these reports became public, the director of the 
Census, Dr. Steven Dillingham, issued a public statement 
confirming that problems were found, but he provided few 
details. These developments were particularly troubling because 
they were not reported to our committee before we read about 
them in the press, or before the Census director made his 
public statement.
    Our committee has direct jurisdiction over the Census, but 
nobody from the Trump administration informed us about any of 
these problems or delays.
    For these reasons, the committee wrote a letter to the 
Census Bureau on November 19. We asked for documents that 
career officials prepared describing these data problems and 
the resulting delays. We also requested documents that were 
prepared for the Department of Commerce, including Commerce 
Secretary, Wilbur Ross. But, in response to our request, they 
gave us nothing--absolutely nothing, not even a single page.
    These documents were due a week ago, and the Census is in 
its most critical stage. Yet the Trump administration seems to 
believe that they owe Congress nothing--no documents 
whatsoever.
    Last week, we held a bipartisan staff briefing with the 
Census director and his top aides. We asked them why they 
hadn't turned over any of the documents we were seeking. In 
response, they pointed to Secretary Ross' office at the 
Commerce Department. They explained that they collected 
documents and sent them to Secretary Ross' general counsel, but 
that they were, quote, ``not cleared for release,'' end quote.
    When my staff asked why not, they indicated that Secretary 
Ross' office is withholding these documents due to concerns 
about, quote, ``ongoing litigation,'' end quote.
    This is entirely unacceptable. The existence of separate 
litigation is not a valid reason to withhold documents from 
Congress.
    In addition, the administration's claim that they are 
withholding these documents because of ongoing litigation 
raises serious questions about whether they are seeking to 
conceal information, not just from Congress, but from the 
judiciary.
    Just this week, on Monday, the Supreme Court heard oral 
arguments in a case involving the President's order to exclude 
undocumented immigrants from the Census count. At the same 
time, the Trump administration was blocking these documents 
from coming out. Nevertheless, despite the Trump 
administration's obstruction, our committee has now been able 
to obtain three of these internal documents from another 
source.
    These internal documents not only confirm that the Census 
Bureau will not take, until at least late January, to resolve 
these data problems and produce a complete and accurate count, 
but that these problems are more serious than first reported. 
These internal documents show that rather than getting better, 
these problems may be getting worse.
    Written by career professionals, these documents describe 
15...[inaudible] more than 1 million records in every state in 
our Nation. These problems could affect state population 
counts, impact representation in Congress, and reduce funding 
states are due under a host of Federal programs.
    These internal documents describe an intensive, 11-step 
process to fix the errors. They also warn that taking shortcuts 
and trying to rush this process could aggravate the situation 
further, and lead to even more problems. As I said, the Trump 
administration tried to block our committee from seeing these 
documents. We had to get them from another source.
    The administration has claimed publicly that they are 
addressing these problems by bringing in more resources, but we 
do not have the information we need to check these claims.
    The Trump administration is preventing our committee from 
verifying the scope of these data problems, their impact on the 
accuracy of the Census, and the time career professionals need 
to fix them.
    For these reasons, the committee sent a letter yesterday to 
Wilbur Ross, the Secretary of Commerce. We gave him until next 
Wednesday to produce a complete and unredacted set of the 
documents we requested last month.
    I ask unanimous consent to place the record--this letter in 
the record, and that it be made part of the hearing record.
    So ordered.
    Chairwoman Maloney. These documents should be made 
available to Congress; to the judiciary, if necessary; and to 
the American people, so that we all have confidence in the 
Census numbers going forward. But so far, the Trump 
administration has tried to keep this information secret from 
everyone.
    As our letter explains, if Secretary Ross fails to comply 
with our request voluntarily, he will receive a friendly 
subpoena. The Constitution charges Congress with key 
responsibilities over the Census, and we need these documents 
to ensure that it is complete and accurate.
    Our witnesses today are experts in the fields of data 
science, Census operations, and the use of Census data by 
cities and states to provide services and improve the lives of 
the American people. I look forward to hearing their expert 
opinions about the new documents we obtained, as well as the 
other significant challenges faced by the Census.
    I now recognize Ranking Member Comer for his opening 
statement, and I yield back.
    Mr. Comer. Chairman Maloney, I appreciate you calling this 
hearing today on the 2020 Census.
    Let me begin by saying unequivocally the 2020 Census is 
counting every resident in the United States regardless of 
citizenship status. The Census Bureau has already counted 99.98 
percent of households in the United States. The remaining two 
one-hundredths of a percent of unresolved addresses will be 
resolved by accepted and long-standing statistical methods. But 
the Democrats still seem uninterested in these facts, and, 
instead, are launching partisan attacks on the 2020 Census to 
undermine the public's confidence in the results.
    Today's hearing supposedly is about the completeness and 
accuracy of the 2020 Census, but just, as for our last hearing, 
no Census Bureau witnesses have been invited to testify. So 
it's unclear to me what we expect to learn today.
    During transcribed interviews earlier this year, Census 
Bureau career staff made clear the Bureau was committed to a 
complete and accurate Census. They are working to deliver on 
this commitment. The Bureau has made clear that the issues it 
has encountered in completing the current phase of the Census 
are few in number, relate to only 63 one-hundredths percent of 
the data for the Census, do not call into question the quality 
of the data, and are on par with issues arising in past 
Censuses. Bureau officials can confirmed they are working 
quickly and efficiently as possible with all available 
resources to finalize a complete and accurate Census.
    While there likely will be a short delay in delivery of 
apportionment results, that isn't because of problems with the 
completeness and accuracy of the Census data. It's because of a 
delay imposed earlier in the year resulting from activist 
litigation.
    Just this week--just this week, the Supreme Court heard 
oral arguments in the challenge to President Trump's directive 
that the Secretary of Commerce report an apportionment count 
that excludes nonlegal residents in the United States, 
including illegal immigrants. That directive was a very 
important step to ensure the sanctity of our Nation's elections 
and equal representation under the Constitution.
    Including illegal immigrants in the count for 
representation in Congress only dilutes the representation of 
all Americans who vote in elections, and makes a mockery of our 
basic principle of one person, one vote.
    I urge us all to focus on the real task at hand: supporting 
the Census Bureau's extraordinary efforts to complete an 
accurate 2020 Census count, not undermining public confidence 
in its work product.
    Given that we've already held hearings on the 2020 Census, 
and the Bureau is on track to complete an accurate count, our 
time would be better spent getting to the bottom of whether the 
integrity of the 2020 election was compromised. During the 2020 
election, we witnessed blanket mail-in balloting in several 
states and a dramatic rise in absentee ballots and others, 
leading to errors and irregularities.
    For example, I sent a letter to the Election Assistance 
Commission inspector general asking him to investigate why the 
California Secretary of State used $35 million of taxpayer 
money to pay Joe Biden's main election campaign advisory firm 
to conduct voter contact. I'd like to know why taxpayer money 
was used in such a questionable manner. But unfortunately, the 
inspector general has yet to take any action.
    Also, on November 18, Judiciary Committee Ranking Member 
Jim Jordan and I called upon Chairwoman Maloney and Judiciary 
Committee Chairman Nadler to hold hearings to investigate 
election irregularities. Why aren't we starting those hearings 
today instead of holding yet another hearing on the Democrats' 
partisan campaign against the 2020 Census.
    Democrats have found ample time to hold countless hearings 
on partisan issues to undermine President Trump and further 
their left-wing agenda, but they won't hold a single hearing on 
election integrity and protecting the sanctity of the ballot 
box? These priorities speak for themselves.
    And with that, I yield back.
    Chairwoman Maloney. Now I will introduce our witnesses.
    Our first witness today is Christopher Mihm, who is the 
managing director of the Strategic Issues Team at the 
Government Accountability Office.
    Then we will hear from Robert Santos, who serves as the 
vice president and chief methodologist for the Urban Institute 
and is also the president-elect of the American Statistical 
Association.
    Next, we will go to Joseph Salvo, who is the chief 
demographer of the Population Division at the New York City 
Department of City Planning.
    Finally, we will hear from Jeff Landry, who is the attorney 
general for the state of Louisiana.
    The witnesses will be unmuted so we can swear them in.
    Please raise your right hands.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    I'll let the record show that the witnesses answered in the 
affirmative.
    Without objection, your written statements will be made 
part of the record.
    With that, Mr. Mihm, you are now recognized for your 
testimony.

STATEMENT OF J. CHRISTOPHER MIHM, MANAGING DIRECTOR, STRATEGIC 
         ISSUES TEAM, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Mihm. Well, thank you, ma'am. And Chairwoman Maloney, 
Ranking Member Comer, members of the committee, I am very 
pleased to once again appear before you to discuss the progress 
of the 2020 Census. In being here, I have the very great 
pleasure of presenting the work of my dedicated GAO colleagues 
who have been supporting the Census, or supporting the Congress 
on Census issues for many years.
    As this committee is well aware, the 2020 Census was 
undertaken under extraordinary circumstances. In response to 
COVID-19, and related executive branch decisions, the Bureau 
made a series of late design changes that affected the way the 
Bureau did its work, and the time that it took to do that work.
    These changes also introduced risks into the quality of the 
Census that the Bureau--Census data, that the Bureau will 
provide for congressional apportionment and redistricting.
    As Mr. Comer noted in his opening statement, the 
professionals at the Census Bureau are deeply committed to 
providing an accurate and complete Census count to--for 
apportionment, redistricting, and for other purposes.
    My bottom line, therefore, today, is that it is important 
both for transparency and to ensure public confidence in the 
quality of the Census that the Bureau share key indicators of 
data completeness and accuracy in near real time as it releases 
apportionment and redistricting data.
    Today, we are issuing the first in a series of our planned 
reports that will assess the operations of the 2020 Census and 
identified lessons learned as planning begins for 2030. And, 
unfortunately, it's not too early to already be thinking about 
planning for the 2030 Census.
    That report, entitled, ``2020 Census: Census Bureau Needs 
to Assess Data Quality Concerns Stemming From Recent Design 
Changes,'' recommends that the Commerce--Department of Commerce 
and the Bureau, evaluate the possible data quality implications 
and lessons learned, including the operational successes of the 
Bureau's response to COVID-19.
    We are very pleased that the Department of Commerce has 
agreed with that recommendation, again, underscoring a 
commitment to complete and accurate Census. Recently, as the 
committee is aware, the American Statistical Association and 
the Census Scientific Advisory Committee issued numerous 
recommendations, including that the Bureau document, what it 
knows about the quality of the population counts it provides to 
the President and to the Congress.
    Consistent with our report, the recommendation that 
Commerce accepted and the work of these organizations, my 
written statement details some of the Census quality indicators 
that the Bureau should consider providing when it releases 
those apportionment accounts.
    More specifically, the Bureau believes, based on long-
standing practice, that the self-response from households 
provides the most accurate Census data. However, the Bureau 
necessarily at times uses alternative data collection methods 
when it is unable to obtain Census data directly from a 
household. These alternative methods include proxies and would-
be neighbors, and other knowledgeable parties, the use of 
administrative records, and count imputations.
    Looking at the rates at which the Bureau used each of these 
alternative methods would give insight into the overall quality 
and completeness of the Census. Nationwide rates provide a 
high-level indication of overall Census quality, and it's 
important that we take a look at those. However, in our view, 
and very importantly, the Bureau also needs to examine the 
rates at which it used each of these alternative methods at 
lower levels of geography, and by key demographic groups to 
provide an overall and more complete picture.
    Chairwoman Maloney, Ranking Member Comer, members of the 
committee, this completes my statement. I'd obviously be 
pleased to respond to any questions that you may have.
    Thank you so much.
    Chairwoman Maloney. Thank you.
    We're going to take a brief recess, because we have a vote 
in our Democratic Caucus meeting right now, and I want to give 
all of our members the opportunity to vote.
    The committee stands in recess for five minutes.
    [Recess.]
    Chairwoman Maloney. The committee will come to order. Thank 
you.
    Mr. Santos, you are now recognized. Mr. Santos?

     STATEMENT OF ROBERT SANTOS, VICE PRESIDENT AND CHIEF 
   METHODOLOGIST, URBAN INSTITUTE, PRESIDENT ELECT, AMERICAN 
                    STATISTICAL ASSOCIATION

    Mr. Santos. Thank you, and good morning, Chairman--
Chairwoman Maloney, Ranking Member Comer, and committee 
members. It is an honor to assist you today.
    Please know that these remarks are my own and not to be 
attributed to the Urban Institute, its trustees, or its 
funders.
    The story of Census accuracy is deeper and more complex 
than the latest chapter on anomalies. These and problems yet to 
be found reveal the consequences and risks. To help illustrate 
the challenges to 2020 Census accuracy, I start with research 
conducted by Diana Elliott, Steve Martin, and I last year, to 
explore 2020 Census outcomes. This was preCOVID. We chose three 
risk scenarios, and used Census Bureau research to simulate 
2020 counts.
    The most optimistic scenario mimicked the performance of 
the 2010 Census, which came in within 1/100th of a percent of 
an independent total population estimate. When we overlaid that 
performance onto a 2020 population projection, we discovered a 
net undercount of the population of 0.3 percent.
    Stated differently, had the pandemic never happened and the 
Census went as well as it did in 2010, an undercount would 
occur. People of color are historically undercounted, and our 
wonderful Nation had become more racially and ethnically 
diverse over the past 10 years.
    While this 2010 Census was accurate for the total U.S. 
population, it came at the expense of fairness. In 2010, Whites 
were overcounted by 0.8 percent, conveniently making up for net 
undercounts for people of color. For instance, nonHispanic 
Blacks had a net undercount of 0.8 percent; Latinx, 1.5 
percent.
    It is unfair to overcount one sector while undercounting 
another to achieve overall accuracy. It reinforces inequities 
in political representation, Federal funding, and economic and 
public health opportunities for the next 10 years.
    Why does this matter now? Consider the ongoing pandemic. We 
see high racial, ethnic disparities in rates of job loss, 
hunger, housing, instability, and health. Daily life for people 
of color often focuses on just meeting basic needs, not 
completing Census forms.
    That brings us to the basic quality indicator, the self-
response rate. Self-response occurs when you complete your own 
Census form. Research shows that lower self-response rates 
increase the risk of a net undercount.
    Now, our national 2020 self-response rate was 67 percent, 
higher than that of 2010. But, in inner-city neighborhoods 
where Latinx, Blacks, and other hard-to-count folks reside, 
self-response rates were drastically lower, 50 to 60 percent or 
under, while in less-diverse suburban areas, they were ultra 
high, at the 70 to 80 percent or more levels.
    These disparities varied more in 2020 than in 2010. So 
people of color are at higher risk of undercounts than in 
previous Censuses. Yet, this is just one of many risks that 
this 2020 Census endured.
    Besides the overarching pandemic, others included the 
citizenship question fracas, massive population movements, 
scheduling disruptions, natural disasters, and, of course, a 
shortened data processing period. Each exposes, or each poses, 
their own threat to Census accuracy.
    But collection is done, so what's next? Well, we need 
transparency. The Census Bureau should release data needed to 
assess the quality of the counts by adopting the 
recommendations of the American Statistical Association and the 
Census Bureau's own Scientific Advisory Committee.
    In closing, I commend the Census Bureau career staff for 
their dedication, scientific integrity, and oath to uphold the 
Constitution. They're esteemed and should be allowed to do 
their jobs unfettered with all due diligence.
    Thank you again, and I look forward to your questions.
    Chairwoman Maloney. Thank you.
    Mr. Salvo, you are now recognized. Mr. Salvo?

   STATEMENT OF JOSEPH SALVO, CHIEF DEMOGRAPHER, POPULATION 
      DIVISION, NEW YORK CITY DEPARTMENT OF CITY PLANNING

    Mr. Salvo. Good morning, Chair Maloney, and members of the 
committee. On behalf of the mayor and the nearly 8.5 million 
people in the city of New York, I thank you for having me here 
today.
    As New York City's chief demographer, my message today is 
twofold: One, the schedule for the decennial Census must 
provide the Census Bureau professional staff with enough time 
to do their jobs well, and in accordance with the rigorous 
statistical standards we expect.
    The Census Bureau, two, must be transparent by releasing 
key indicators and giving Americans confidence in the Census.
    The Census has been presented with challenges in the past, 
but few have been as formidable as those posed by the 2020 
Census. Among the challenges we have faced, the most pressing 
has been the toxic mix of fear among many immigrants and their 
families, combined with the devastating pandemic.
    Thus, the challenge of overcoming this fear in many 
immigrant communities has been hampered by the very absence of 
physical, on-the-ground outreach that has been shown to 
encourage response, especially self-response.
    In an effort to cope with these extraordinary 
circumstances, the Secretary of Commerce and the Census Bureau 
leadership wisely reset the schedule for the 2020 Census last 
April. This provided more time for the all-important 
nonresponse followup, or, as demographers refer to it, NRFU, 
when Census workers knock on doors in order to enumerate those 
who did not respond on their own.
    Unfortunately, this revised schedule was upended this past 
summer, greatly abbreviating the time the Bureau had in the 
field for NRFU and the time to process the data on the back 
end.
    Why should we be concerned?
    First, the very definition of usual residence was likely 
upended for many because of movement due to the pandemic, many 
persons who were not enumerated at their usual residence as of 
April 1, 2020, but in other locations--some students and 
others, for example--in temporary locations with family members 
or friends, or in second homes. For those whose usual residence 
was in New York City on April 1, the Census Bureau needs time 
on the back end to adjust their residence, as defined by the 
Census Bureau.
    Moreover, such confusion among respondents over where they 
were supposed to be enumerated in the middle of a pandemic is a 
virtual guarantee that large-scale duplication of responses 
will occur. Deduplication, using data on forms that sometimes 
lack important basic information, such as a person's name, is 
laborious with substantial time required for successful 
completion of the process.
    Second, to increase response, the Bureau allowed 
respondents to write in their addresses without a Census ID. 
This is fine for those who have regular known addresses that 
can be easily linked to the Census Bureau's master address 
file, but not for those who have irregular addresses, where 
apartment numbers do not formally exist.
    The Department of City Planning worked for more than two 
years identifying these addresses, by assigning them apartment 
designators and getting them on the Bureau's address list. But, 
without a Census ID, the Bureau needs to conduct additional 
work in the field during NRFU to match these irregular 
addresses to their master address file.
    With less time in the field as a result of the abbreviated 
schedule, it is very likely that many of these cases need to be 
resolved by the Bureau as part of back-end processing, which, 
as we all know, has now--has been truncated.
    Third, there is a serious concern about how the Census 
Bureau, in the midst of a pandemic, achieved a 99-plus percent 
completion rate in parts of New York City where self-response 
over a period of five months was less than 50 percent, given 
this shortened NRFU timetable.
    The answer is that, ``completed,'' in quotes, or 
``resolved,'' again in quotes, does not necessarily mean--and I 
quote, ``enumerated by a household member,'' close quote.
    But what does it mean? It could mean that the enumerator 
determined the unit to not exist. It could mean that the unit 
was deemed to be vacant. The cases could have been resolved by 
contact with a proxy respondent, or by our administrative 
records, such as tax returns, Social Security records, or the 
final determination could be an outright refusal or no 
determination could be made for what was believed to be an 
occupied unit.
    The Census Bureau needs the time to assess these cases, to 
evaluate the use of administrative records, or to assign a 
count to households known to exist using a procedure called 
statistical imputation.
    Moreover, metrics need to be produced that reflect how this 
Census was actually completed. For example, what was the level 
of deduplication? How many persons needed to be reassigned to 
their April 1 residence?
    To conclude: One, the schedule for the decennial Census 
must provide the Census Bureau professional staff with enough 
time to process, evaluate, and correct what we all suspect will 
be an increased volume of problems with this Census due to the 
pandemic.
    And second, the Census Bureau must be transparent by 
releasing key indicators endorsed by the Census Quality 
Indicators Task Force of the American Statistical Association. 
Moreover, these metrics have to be provided for small 
geographic areas, sub-state geographic areas, Census tracts, 
the building blocks of New York City's neighborhoods.
    This will not only provide data users with confidence in 
the quality of the data, but will allow the Bureau to maintain 
its credibility as the Nation's premier statistical agency.
    I thank you, and I look forward to questions.
    Chairwoman Maloney. Thank you.
    Mr. Landry, you are now recognized. Mr. Landry?

   STATEMENT OF JEFF LANDRY, JEFF LANDRY (MINORITY WITNESS), 
                 ATTORNEY GENERAL OF LOUISIANA

    Mr. Landry. Thank you, Chairwoman Maloney, Ranking Member 
Comer, and members of the Oversight and Reform Committee. It's 
a privilege to be with you here today.
    Where we'd be productive today would be for every member of 
the committee to stipulate that they are in full support of 
legal immigration. It would be a great place to start.
    If we can start from that premise that all of us support 
legal immigration, then we can proceed to deal with immigrants 
that, for whatever reason or circumstance, are in this country 
illegally. From there, we would move to what the definition of 
a citizen is, because to have a Nation, we must have citizens.
    To be a citizen means to belong to a sovereign and be 
bestowed with all of the rights, privileges, and protection of 
that sovereign, like being eligible for the draft; serving in 
the military; standing on a jury; voting; contributing to 
Social Security and other safety net programs; having the 
allegiance to our country. As the attorney general and citizen 
of this country, I take special interest in this issue.
    This committee is aware that the Constitution requires a 
count of persons living in the United States every 10 years for 
the purpose of representative reapportionment, and it places 
the responsibility with Congress to direct the count by law.
    To that end, Congress, you all, gave the Secretary of 
Commerce broad discretion to determine the form and contents of 
each Census. It similarly charged executive with reporting 
those results of the apportionment determinations to Congress.
    An example of the Secretary's broad discretion can be seen 
in apportionment of overseas servicemembers. Depending on 
several characteristics of their service, they are counted 
either at their usual place of residence, or at their military 
installation. Foreign nationals, tourists, and corporate 
entities are excluded from the count and apportionment, even 
though they are technically persons under the law.
    These alterations come from policy directions of the 
Secretary, and they are consistent with the language of the 
Constitution and the goal of promoting equality. They ensure an 
accurate Census and a fair apportionment, as the law requires. 
This was President Trump's goal when issuing his memorandum to 
the Commerce Secretary.
    The President's memorandum relies on the powers granted to 
the executive branch of government by you all, by Congress, and 
the Constitution. Its aims are simple: to restore equality in 
voting power by excluding illegal immigrants from the 
reapportionment base. This is not a difficult fix, certainly 
not as drastic as, say, adding another State to the Union.
    The fate of three seats does not upend the balance of 
power. We should always seek to ensure the balance of power, 
and recognize that an illegal immigrant's presence should not 
give one state power over voters in another state.
    By counting illegal immigrants in the reapportionment base, 
the Federal system incentivizes states to work against that 
system, and against each other. Sanctuary policies that entice 
illegal, entry enshield wrongdoers from justice, undermine 
community safety, and the rule of law. But those states and 
cities implementing these policies also see increased power on 
the Federal stage, thus disenfranchising other states.
    In this cycle alone, illegal immigrants are projected to 
grow in giant states like California, Texas, and New York, 
while states like Ohio, Alabama, and Minnesota, would each lose 
congressional representation. To reiterate, people unlawfully 
in this country are causing long-standing changes in our 
democracy by simply being counted.
    As the Supreme Court has recognized, few interests are more 
vital to a state than the extent of its representation in the 
House. Allowing illegal immigration to distort congressional 
apportionment works an injustice to every state, not just to 
those bound to lose seats.
    Illegal immigrants must be excluded from the 
reapportionment; otherwise, they disenfranchise other states by 
unfairly distorting the apportionment of House seats in favor 
of states with higher concentrations of illegal immigrants. 
When determining the appropriate balance of power amongst those 
that wield it, the Constitution demands that all votes be given 
equal weight. We cannot achieve that precise balance until we 
adopt policies laid out by the President.
    I thank the committee for this time, and I'm happy to 
answer any questions.
    Chairwoman Maloney. Thank you.
    We're having some connection issues and, with Mr. Landry's 
presentation, he was wrapping up his presentation, so I feel 
that I now recognize myself for five minutes.
    I'd like to begin by asking about the new internal 
documents obtained by the committee. These documents describe 
at least 15 different problems the career professionals at the 
Census Bureau have identified in the data.
    They also show that career staff have warned the Trump 
administration that complete and accurate data will not be 
ready until late January or early February. As I explained 
earlier, the Trump administration did not want us to see these 
documents, but we were able to obtain them nevertheless.
    I understand that our witnesses have now had an opportunity 
to review these documents, so I'd like to start with a simple 
question, which I hope you can answer with a yes or no:
    If the administration disregards these data problems and 
rushes to submit Census data before these problems are fixed, 
would you have a high level of confidence that the data is 
complete and accurate as required by the Constitution?
    Mr. Salvo, yes or no? I can't hear him.
    Mr. Salvo. No.
    Chairwoman Maloney. OK. Mr. Santos, yes or no?
    Mr. Santos. No.
    Chairwoman Maloney. Mr. Mihm, yes or no?
    Mr. Mihm. Not until they're fixed, no, ma'am.
    Chairwoman Maloney. OK. Mr. Santos, I'd like to ask about a 
specific problem described in Document 1, No. 1. In this 
document, career staff identified a data error that could 
result in skipping records for people who are counted in group 
quarters, such as college dorms, nursing facilities, and 
military barracks. Career staff warned that this impacts more 
than 16,000 records, and if not corrected, quote, ``may result 
in undercounted persons,'' end quote.
    Mr. Santos, why is it a problem to undercount people in 
group quarters? What is this about?
    Mr. Santos. Well, group quarters are--represent individuals 
in situations like nursing homes, college dorms, homeless 
shelters, and the sort. It's important to count them, because 
they are residents of the United States, and the Constitution 
requires the Census Bureau to count individuals who are 
residents.
    And, with that, it's not surprising that the Census Bureau 
has encountered a problem with group quarters since the group 
quarters enumeration was disrupted during the pandemic.
    So I am not surprised at all that, roughly, perhaps half of 
the list of problems that have been revealed thus far are 
related to group quarters.
    Undercounting results in underrepresentation. It results in 
fewer Federal fund allocation. It results in an inability to 
properly plan in urban and rural areas. So we simply can't let 
that happen, and I encourage the--that the Census Bureau, as I 
said, be allowed enough time to sort all of this out, and to do 
the best job it can to come up with the most accurate counts 
that it can.
    Chairwoman Maloney. Thank you.
    Mr. Salvo, also in Document 1, career officials identified 
another error affecting about 46,000 records from people who 
filled out paper questionnaires in nine states. The career 
staff wrote, and I quote, ``if this error isn't corrected, 
demographic data for persons will be missed and may impact the 
final compilation counts,'' end quote.
    So, Mr. Salvo, what could the impact be if final state 
population counts and demographic data are not accurate?
    Mr. Salvo. My main point would be----
    Chairwoman Maloney. Mr. Salvo?
    Mr. Salvo. Yes. The Census Bureau in, those documents, 
talked about how maybe the problems that they were discussing 
affected maybe seven-tenths of a percent of the population. The 
important point to make is that that is not evenly distributed 
over the geographic areas of the country, and that there are 
some areas that will be more greatly affected than others. 
Anything that compromises the content of the decennial Census 
will be felt more in some areas than in other areas, and it's 
important to note that.
    And, if I may, Chairwoman Maloney, comment on the group 
quarters? Can--would I--can I comment on that, please?
    Chairwoman Maloney. Yes.
    Mr. Salvo. OK. The Census Bureau, because of the truncation 
of the schedule, they stopped an external review of the group 
quarters facilities that would be included in the Census. They 
truncated it greatly. That's the first point.
    And the second point is there are some jurisdictions in 
this country with large numbers of GQs, or group quarters, that 
define who they are. And it's a distribution that affects some 
areas much more than others.
    But, insofar as your question on content goes, we are very 
concerned that the truncation of the schedule, less time in the 
field to get those answers, has caused the Census Bureau to 
push their enumerators to a point where, frankly, we've 
compromised the data itself.
    And that's what the metrics that the American Statistical 
Association has promoted. That's what it gets at. And that's 
not in the memo, OK? That's not in the memo. We need to go 
beyond the memo, the quality of the data that they have, quote, 
``corrected.''
    Chairwoman Maloney. Thank you. Thank you.
    Mr. Mihm, let me ask about the last page of Document No. 1, 
where it lists considerations and risks. In the final bullet, 
the career staff set forth a stark warning. They explained that 
they are working on a comprehensive patch with more than a 
dozen individual patches to address all these problems. But 
then they say this, and I quote, ``if the sequencing of patch 
deployment isn't executed properly, it may result in other data 
anomalies,'' end quote.
    Mr. Mihm, in other words, if they try to rush this, they 
could aggravate the process and result in even more problems. 
Is that right? Mr. Mihm?
    Mr. Mihm. Yes, ma'am. There is two actual concerns that we 
have, and I think that are shared by the Census Bureau. One is 
the rushing, as you mentioned. These patches have to be put in 
place, they have to be tested, and then you have to see whether 
or not you have to do the comprehensive fix to see whether or 
not they all work together.
    And we're still talking about the first stage of the data 
processing. There is other stages yet to come before the 
apportionment data comes out. The Bureau is certainly going to 
be looking at that. We know from history that there will--they 
can expect that there will be additional anomalies that will 
show up there. The expectation, of course, based on history, is 
that they will be fewer and less significant, but we're not 
certain of that.
    And I--and if I would say, if there is something that is 
probably keeping the Bureau up at night as they process it, 
that is probably it. What is going to be the second round, if 
any, of anomalies, how big will they be, and will they be more 
than historically expected?
    Chairwoman Maloney. And could that lead to less accurate 
data and even more delays, correct? Mr. Mihm?
    Mr. Mihm. It could certainly lead to more delays. And, you 
know, the important thing to--as a number of people have 
already pointed out, is that what we are dealing with, with 
relatively small numbers, in a country of, you know, 330, 340 
million people, yet the small numbers are what turned the last 
congressional seat.
    In 2000, for example, the last seat was determined on a 
population difference of less than 1,000 people. In 2010, it 
was less than 16,000 people.
    Now, you know, I don't want to imply that all of these 
problems are that, you know, concentrated, that they're going 
to turn one seat. But, rather, it's--you know, small numbers 
are--do have a big impact at this point in the Census.
    Chairwoman Maloney. Thank you.
    Clearly, the data errors in these internal documents are 
significant and widespread, affecting all 50 states. They must 
be fully addressed by career experts, and our committee must be 
given the documents we requested in order to verify that these 
errors have been fully addressed.
    I thank all of the witnesses, and I'd now like to call on 
Mr. Massie. You are now recognized for questions. Mr. Massie?
    Mr. Massie. Thank you, Madam Chairwoman.
    I'd like to ask Attorney General Landry if he could go 
through again for us how the counting, or the Census counting 
of illegal immigrants, unfairly biases representation here in 
Congress for certain states. And if he could explain to us 
which--how that's going to affect apportionment coming up in 
the next cycle. I believe you're on mute.
    Mr. Landry. Sorry. Thank you.
    Sure. So, if you take states such as rural states with 
large--larger populations of, say, senior citizens, or states 
with large populations of African-Americans or poorer states, 
those states should be apportioned equally, right, and they are 
all citizens in the country and should be counted.
    Those states, such as California, that embrace the 
sanctuary city policies and basically attracts illegal 
immigrants to those cities, are then unevenly weighted, and so 
those citizens in other states are, therefore, disenfranchised 
when we reapportion the seats in Congress.
    And so, that's exactly what the President was recognizing. 
He wanted to make sure that all citizens were represented 
equally in the country in the U.S. House of Representatives.
    Mr. Massie. So, if California gets an extra seat, or two 
extra seats, because we're counting illegal aliens in 
California, those--there are only 435 seats in Congress. That 
means that some state, or states, somewhere, are going to lose 
representation. Is that correct?
    Mr. Landry. That's correct. So, right now, based upon what 
we're seeing, you would think that--what we're seeing is that 
Minnesota, Ohio, and Alabama, may be losing a congressional 
seat. So, therefore, African-Americans in Minnesota, Alabama, 
in Ohio, senior citizens in those particular states, are, 
therefore, going to be disenfranchised at the expense of 
illegal aliens in California.
    Mr. Massie. And then, this sets up a perverse incentive for 
states to--if they want to get another representative in 
Congress, to incentivize illegal immigration into their states, 
doesn't it?
    Mr. Landry. That's correct. It's going to create basically 
a competition between states to try to attract illegal 
immigrants in their states rather than, the way that Ronald 
Reagan always said, that people can vote with their feet, by 
basically going into states--citizens moving from one state to 
another based upon, say, economic means or opportunities.
    It was interesting that we heard from one of the witnesses 
when he talked about the amount of resources that could be 
restricted to, say, minority communities or, again, to senior 
citizens. Again, counting illegals in that basically, again, 
take resources away from minority communities in other states, 
like Minnesota, Alabama, and Ohio.
    Mr. Massie. Thank you, Attorney General. You know, I'm glad 
we had a chance to discuss this issue in this hearing, because 
a lot of my constituents are incredulous when they find out 
that the Census actually counts illegal aliens who are in this 
country, and that apportionment is therefore--is then based on 
that. They don't even believe that that's actually happening, 
but it is happening.
    So, I think it's--I think it's good that we had this 
hearing for that reason. But there are other hearings we should 
be having that we're not having, Madam Chairwoman. For 
instance, you know, this stimulus bill that we passed, the 
$1,200 checks, we just found out a billion of those, $1 billion 
worth of those--I'm sorry, over $1 billion of these stimulus 
checks went to deceased individuals, and the check says 
``deceased'' on it. I'd like to have a hearing on why are we 
sending $1,200 checks to deceased people?
    Also, it just came out in an NPR article that the IRS 
admits that they are sending $1,200 stimulus checks overseas to 
non-Americans. Why are we sending--when we have Americans in 
need, why are we sending $1,200 stimulus checks to non-
Americans overseas?
    I had a Norwegian who sent me a copy of his father's check. 
The man's lived in Oslo since the 1970's. He's a Norwegian 
citizen, not a dual citizen, received a $1,200 check, does not 
file a U.S. tax return. Can we please have a hearing on the 
waste, fraud, and abuse--and I've just scratched the surface--
that's gone on with this stimulus program?
    Adding insult to injury, I know hundreds of my 
constituents, many of them in the military, who still haven't 
received the $1,200 check. I think it's an insult to our 
soldiers serving overseas, that, you know, I know it's hard to 
get people to respond to the Census sometimes, but we know 
every member of the military. We tell when to get up, what to 
eat, when to go, yet we can't find them in order to send them a 
$1,200 check, and we're sending them to rich Norwegians 
overseas. I think this is a problem, and it deserves a hearing.
    And I yield back.
    Chairwoman Maloney. I thank the gentleman for his 
questions, and the GAO did, in fact, do a report on checks 
going to deceased persons and pointed out ways to stop that. 
There is legislation in the--before Congress right now that 
would stop that process from going forward. We will have a 
hearing on it and followup on it.
    And I now recognize Ms. Norton. Congresswoman Norton?
    Ms. Norton. Thank you very much, Madam Chair. I thank you 
for this hearing. I think it's very important that we get 
beneath the surface, and this hearing is doing that.
    Now, I have a particular question, because I was a 
professor of law at Georgetown Law School before I was elected 
to Congress, and I even continue to serve--that is, to teach 
one course at the law school, after coming to Congress.
    So, I'm particularly interested in students, because I 
recognize that they present a major challenge. After all, they 
often have what amount to two addresses. They live at home, and 
they live off campus. Yet, they are supposed to be counted in 
their off-campus, or house--dorm housing. But, of course, COVID 
now complicates matters, and many of them have been forced to 
go back home.
    Mr. Mihm, I'm concerned about counting these students, 
particularly since, even before the virus, the Department of 
Commerce Inspector General found that the Census Bureau had 
been undercounting off-campus student households.
    Now, that's--I guess that's before we got into the present 
complications. They said that the Bureau's efforts to collect 
data on off-campus students from college and university 
administrators--and here I'm quoting them--will not mitigate 
the risk of an inaccurate count because the Bureau has not--
does not have a final plan in place to use off-campus student 
data.
    Now, when you consider the complications of the virus, that 
really concerns me, Mr. Mihm.
    Are you concerned that college students who live on off-
campus will be undercounted, and what do you think we should be 
doing about it, especially given what the Census Bureau had to 
say about this matter, that this report was issued on August 
27?
    Mr. Mihm. Ma'am, your concern is very, very well-founded, 
and what's interesting is that, historically, college students 
living at school have been among the most overcounted 
population--that is, double-counted, that they are counted both 
at their university, usually where they should be, because it 
is their usual residence, and they find that their family will 
also count them back at home. You know, and so it's typically 
been in the other direction.
    The Census Bureau did work very hard with universities to 
try and get an accurate count of the students in--both in their 
dorms. That was an easier kind of lift for the Census Bureau to 
work with the universities who would have been there. The much 
more difficult one, as you're pointing out, is for students 
that were living in off-campus housing.
    In some cases, the universities had that information and 
shared it. In many cases, they didn't have the complete 
information of students living off campus. And, in some cases, 
they were reluctant to share that information with the Census 
Bureau.
    The basic procedures that the Census Bureau would use in 
those circumstances are consistent with what you would use in--
to enumerate any other unit, using proxy data, other 
administrative data when they could, and, in the end, if they 
have to, using imputations. But your question is very--the 
concern is very well founded, ma'am.
    Ms. Norton. Yes. Mr. Mihm, many students--according to 
information I have--what I heard them say, that many 
universities provided data to the Census Bureau about students 
in campus housing, but--and what I don't understand is they 
have not cooperated with requests to help count students who 
live off-campus. Why weren't they cooperating with these 
requests? They should have had that data.
    Mr. Mihm. Yes. In cases where they did have that data and 
weren't willing to share it with the Census Bureau, ma'am, 
frankly, it's not clear why, or at least I don't have a good 
explanation so that I could, you know, inform you on that. You 
would think that they would be willing to do it. It would 
certainly be in the best interests of the university and the 
local community where that university resides to make sure that 
there is an accurate count in that community.
    Ms. Norton. I'm going to ask the chair to look into the 
matter of what the Congress can do to make sure that 
universities do, in fact, cooperate in the future, because I 
don't see any reason for that. I don't see any reason for that.
    Is my time expired?
    Chairwoman Maloney. Yes, it has, and thank you for raising 
it, and we will look into it and get back to you.
    Ms. Norton. Thank you.
    Chairwoman Maloney. I now recognize Mr. Gosar. You are now 
recognized for your questions.
    You're still muted. You're still muted.
    Mr. Gosar. Can you hear me now?
    Chairwoman Maloney. Yes. Now we can hear you.
    Mr. Gosar. Thank you, Madam Chairman.
    Well, I don't know how many times I can say it. It's ground 
hog today once again in the Oversight and Reform hearing today. 
How many times can we waste American taxpayer dollars to sit 
here for the Democrats' conspiracy theories? But here we go 
again.
    When it comes to misrepresenting the data, the majority 
here has been all too happy to undermine the integrity of the 
Post Office, Postal Service--we'll keep that in mind--and the 
Census Bureau, to the American people to score cheap political 
points, only then to turn around and to critique their 
Republican colleagues for requesting hearings regarding 
integrity of the election because of reelection censorship and 
irregularities in the vote count. But apparently, even assuring 
integrity in the people's government has become a partisan 
issue.
    But, since we are here, let's get to addressing these 
problems.
    Mr. Mihm, thank you again for appearing before this 
committee and the several reports your team has issued on the 
Census. In September, when you were last here--appeared, I 
asked you about this unprecedented Census, and how technology 
and excellent field work by Census workers overcame the 
challenges posed by COVID and weather barriers.
    In your team's December GAO report, is it true that you 
confirmed that the Census Bureau accounted for 99.98 percent of 
all households in America?
    Mr. Mihm. Yes, sir. And, Mr. Gosar, it is a pleasure to see 
you again, sir. Yes, they--of their households, they've--
overall, they've done very well----
    Mr. Gosar [continuing]. For the Bureau to tally the Census. 
Your report raises concerns of the amount of time it has to 
complete an accurate Census. I'm sure it would have helped if 
the Census were allowed to end its data collection phase on the 
September 30, like it was supposed to. But, instead, liberal 
lawsuits granted in liberal Federal courts, which halted the 
ending of the Census by 15 days.
    There seems to be excuse after excuse to move the goalpost, 
whether it's COVID, lawsuits, or even weather, all in the 
concerted effort to have final counts to be done past 
inauguration in the hopes of having it out of the hands of the 
Trump administration.
    Thank you, Mr. Mihm, again, for you and your team's work, 
and thank you for our Census workers and the technical support, 
which has allowed for an unprecedented response rate and 
tabulation, which means to ensure that the American people are 
counted accurately and in a timely fashion.
    Attorney General Landry, in a democratic society, ``one 
person equals one vote'' is a fundamental notion. The inclusion 
of illegal aliens in the apportionment count dilutes this 
principle, however, because it grants states more seats in the 
body than they have legal voters. In the followup on this 
election, ensuring that each vote is counted and recorded 
properly, is something--is there something we must ensure, and 
that starts with granting all Americans an equal vote in the 
Congress?
    I want to take issue of the vote dilution one step further. 
One strength we had in the Census is its accuracy, which I have 
previously mentioned. Yet, every day, hundreds of Americans 
leave states like New York, Illinois, California--[inaudible]
    Mr. Connolly. I can't hear anything.
    Chairwoman Maloney. Wait. We're having some connection 
issues. We're going to go to Representative Connolly for his 
questions, and back to Mr. Gosar if he needs more--to complete 
his question. Mr. Connolly--Representative Connolly, you are 
now recognized.
    Mr. Connolly. Thank you, Madam Chairwoman. Can you hear me?
    Chairwoman Maloney. Yes, we can.
    Mr. Connolly. Thank you. And first of all, let me begin by 
thanking you. You have been a stalwart on the on whole issue of 
the Census, and your leadership matters a great deal, and I 
salute you and thank you on behalf of my constituents for your 
advocacy of an accurate but careful Census. And thank you, 
Madam Chairwoman, for that.
    Mr. Mihm, the internal documents obtained by the committee 
explain that the Bureau will, in fact, not finish fixing the 15 
anomalies it has identified and verifying the final Census 
count until late January or even possibly early February. How 
important is it that the Bureau correct these data anomalies 
before moving on to the next step in data processing and 
completing the Census count?
    Mr. Mihm. Mr. Connolly, the Bureau believes that it is 
absolutely vital that they be corrected before they go on. 
These 15 are what the Bureau has referred to as the critical 
anomalies, and critical isn't a function of size. It's those 
that are directly centered on the apportionment counts. And so 
they can be small. Some of them, of course, are quite large. 
They need to be fixed before you move on to the second stages, 
and so that's--and that's in the Bureau's view and, obviously, 
we would share that view with the Bureau.
    Mr. Connolly. Thank you.
    According to the Bureau's internal documents again, the 
time needed to correct those anomalies, which you say is 
essential before proceeding, include the need for preparation, 
development, testing, and implementation of fixes. Would you 
agree that there is just no plausible way to rush or shortcut 
that collection process without further compromising the 
quality of the data itself?
    Mr. Mihm. Well, certainly, sir, rushing or shortcutting 
would just be an enormously risky situation, and that's what we 
are focused on with the Bureau. We have asked them for quite a 
bit of documentation. We haven't received it yet. It's being 
reviewed by the Department of Commerce and general counsel over 
there.
    So we want to see what is the critical path. What is 
actually, you know, their timeline that is going to get them to 
delivering the apportionment counts. We've heard, as many 
others have, they don't have a firm date. They are looking to 
get it in January at some point.
    Mr. Connolly. Yes. And I think it is important to remember 
that with respect to apportionment, I mean, you know, this is 
really life or death for many, many communities, whether a 
state has--loses a Representative or could have gained one but 
for the lack of accurate data does not, let alone the 
allocation of Federal resources.
    So, I mean, the stakes are very high for communities all 
over the country that we get this right, that we take the time 
to make sure we get it right.
    Mr. Santos, you are president elect of the American 
Statistical Association, an organization that seeks to promote 
and practice the profession of statistics, a really engaging 
process.
    Do you believe outside experts should have the opportunity 
federally to review the Census data before apportionment count 
is finalized? And, if so, why?
    Mr. Santos. Absolutely. I am actually a big believer in 
community-engaged research. Oftentimes folks and programmers 
running diagnostics to find errors don't realize that they have 
missed something that's crucial, and the only way that that can 
be uncovered is by becoming transparent and allowing 
researchers outside of the Census Bureau access to those data 
so they can see if basically it passes the laugh test in their 
local community.
    I've heard instances where prisons ended up having a zero 
population because they were allocated by mistake to the 
counting next door. Those types of small changes may not affect 
a state count, but they certainly will affect Federal funding 
and planning, and so forth, within a state. And I'm very 
concerned about the within state population accuracy.
    Mr. Connolly. Final question, and maybe to you, Mr. Mihm, 
again, but there are states that have statewide elections next 
year. You know, many of us focus on, you know, the other 40-
something states that have elections coming up in 2022. But, 
frankly, this Census data traditionally has been made available 
early to Virginia and New Jersey and Kentucky, I believe, but 
certainly New Jersey and Virginia because we have gubernatorial 
and statehouse elections next year, and so we have got to have 
the reapportionment data to be able to reapportion in time for 
our elections next November, less than 12 months away.
    How might the documents we have uncovered with respect to 
the Census, internal Census deliberations, and the possible 
delay of that data until January or February, how might that 
affect states that have early elections and are desperately in 
need of early Census data in order to do their reapportionment 
before every other state?
    Mr. Mihm.
    Mr. Mihm. Well, Mr. Connolly, as a fellow Virginia 
resident, I am well aware of what you're referring to there. 
The biggest risk would probably be the knock-on effect for 
redistricting data. As you know, that comes a few months after 
the apportionment data, and if the Census Bureau runs into 
challenges with--further challenges that delay substantively 
the apportionment data that then have a knock-on effect for re 
districting data they take that into the later spring, my 
understanding is, you know, from all that we have seen, that 
that could put some pressure on the states that do need to 
redistrict for legislative races this fall.
    Chairwoman Maloney. The gentleman's time has expired.
    And Mr. Gosar still is not ready to complete his 
questioning. All right, we are having difficulties connecting 
with him.
    Mr. Hice, you are now recognized for questions.
    Mr. Hice.
    Mr. Hice. Can you hear me?
    Chairwoman Maloney. Yes, we can.
    Mr. Hice. OK. Thank you very much, Madam Chair.
    Just going back and looking at some stats from the past, in 
the 2000 Census, under Republican control, two years before the 
2000 Census, there were 18 hearings. The 2010 Census, 
Democratic control of the House, two years prior before the 
2010 Census were 11 hearings.
    The years four and three prior to this Census, under 
Republican control, we had nine hearings regarding the Census. 
Now the two years prior to this one we have had only five 
hearings. And I must admit the biggest bulk of the five 
hearings that we have had over the last couple of years have 
been simply hearings to bash the President and the 
administration, not there were not some legitimate questions on 
the hearing--on the Census, there were; but, by and large, we 
were attacking the citizenship question and attacking Secretary 
Ross, and so on and so forth. But we have only had five 
hearings, and now today we don't even have representatives from 
the Census here with us again.
    The Census is counting every person in the country as they 
are required to do, but the President is right by insisting 
that only those who are here legally be included in the process 
by which we as a Nation determine our governments.
    And yet, here again, Democrats are intent on ensuring that 
they tie up this process in order to get a desired outcome, 
which, in essence, is to make sure that states with the largest 
number of illegal immigrants are actually rewarded with extra 
representation that they don't deserve.
    So let me go--Mr. Landry, thank you for being here. I would 
like to ask you as I get started here, regarding the temporary 
restraining order and then the preliminary injunction from 
Judge Koh, that ignored the Secretary's obligation by law to 
meet the December 3l deadline to submit a final report to the 
President.
    Do you agree with that?
    Mr. Landry. Yes.
    Mr. Hice. OK. So was that then, in essence, compelling the 
Secretary to ignore or perhaps even break the law?
    Mr. Landry. Yes. Yes, it was.
    Look, the whole topic here is that California was basically 
hoarding resources of the Census Bureau when those resources 
were needed in other states in order to complete the Census 
count on time.
    Mr. Hice. Well, so let me ask you, just in your experience, 
for judges to order illegal action, is that a common practice 
by judges?
    Mr. Landry. In the Federal courts, in the liberal courts, 
yes, it is, unfortunately; but it shouldn't be. The judges 
should be bound to apply the law and the facts.
    Mr. Hice. So you described in two different amicus briefs 
how the residents of your state stand to have their right to 
equal representation diminished by these two really perverse 
legal efforts: One compelling the law to be broken; the other 
counting illegal aliens in the apportionment which actually 
rewards breaking the law.
    Is that----
    Mr. Landry. That's correct, yes. I got a little confused 
between the two cases. We filed amicus in an intervention in 
California in one case, and then the New York case that you may 
have been talking about earlier was where the
    [inaudible] were trying to basically ensure that we did not 
count illegals for reapportionment, in order to reapportion the 
House districts.
    Mr. Hice. Right. And both of those have had--stand to have 
a negative impact on your state.
    I go back, and I just think of the Democrats in this 
community, I go back to April, and in this committee, with 
COVID as it was at that time--of course, April was a very 
insecure time. No one knew what was going on. But in this 
committee the Census stated in April that they were going to 
need a four-month delay. But I would also remind everyone that 
it was also in April that the Postal Service announced that 
they were going to be insolvent by September.
    Of course, that did not happen. There was a lot of 
uncertainty going on in April, and as was brought up here a 
little while ago, the Census met with us in August of this year 
saying that they were going to be able to meet the December 
deadline.
    So things that were predicted, that were feared just simply 
never happened.
    Mr. Mihm, what was the enumeration rate at the end of the 
2010 Census? Do you remember?
    Mr. Mihm. The enumeration rate done--I'm sorry, sir. Do you 
mean the undercount from the 2010 Census or----
    Mr. Hice. Yes, the enumeration rate. I mean, you said 
awhile ago that the one this year is 98.98. What was it in 
2010? Do you remember?
    Mr. Mihm. I'm sorry, yes. It's a little bit of an apples 
and oranges, but what this is is when the Census is all done, 
they do a major coverage measurement effort in order to assess 
the quality in the Census.
    The 2010 Census continued a pattern of improvement over 
prior censuses and had a net overcount of about .01 percent. As 
was mentioned earlier by Mr. Santos, that was different, 
though, by demographic groups. You did have a net undercount of 
non-Hispanic Blacks and Hispanics and American Indians living 
on reservations. But the overall with a .01 percent overcount. 
Again, that----
    Chairwoman Maloney. The gentleman's time has expired, but 
the gentleman may answer the question.
    Mr. Hice. He did answer the question, ma'am. I would just 
like to conclude by saying I would love to be able to ask some 
of these questions to Census, but, obviously, I can't because 
they were not even invited to be here today. Hopefully, we will 
be able to speak to them in person in the future.
    And I yield back. Thank you.
    Chairwoman Maloney. Well, I do want to say that some of my 
colleagues have complained that officials from the Census 
Bureau or the Commerce Department are not here today. Well, let 
me just say that nothing is off the table going forward. We can 
invite them.
    This hearing was called because the Trump administration 
refused repeatedly to share information that the Oversight 
Committee requested over and over with our committee. We had to 
learn about major problems not from the Census Bureau but from 
the press. And then, finally, we got more information from 
alternative sources that brought the information to us and felt 
that we should have it.
    I must say that we have invited--we ask for information 
from Secretary Ross and from Director Dillingham, and they 
refused to give us the information. That is why we are now 
discussing the information that we got from an alternative 
source.
    We can certainly have Mr. Dillingham and Mr. Ross back to 
another hearing next week. If you would like to request it, we 
will certainly grant that to you.
    Mr. Hice. We have----
    Chairwoman Maloney. And the current status is--excuse me. 
The current status is that we wrote to Secretary Ross 
yesterday, and we gave him one week to complete--a complete 
amount of documents that are unredacted, a set of documents we 
requested last month, and if he does not, then he could very 
well face a subpoena.
    And I will also consider whether we need to hold another 
hearing to hear directly from him and Secretary Ross. And if 
you request it, Mr. Hice, we will certainly do it. And I hope 
that he cooperates voluntarily.
    Now, I have to announce that we have to take a very brief 
recess because we have a vote----
    Mr. Comer. Madam Chairwoman----
    Chairwoman Maloney.--the caucus meeting right now, and I 
want to give all of our members the opportunity to vote.
    The committee stands in recess for five minutes.
    [Recess.]
    Chairwoman Maloney. The committee will now come to order.
    The Chair now recognizes Congressman Raskin. You are now 
recognized, Congressman Raskin.
    We can't hear you yet.
    Mr. Raskin. Can you hear me now, Madam Chair?
    Chairwoman Maloney. Yes, we can. Thank you. We can hear 
you.
    Mr. Raskin. Good. Thank you very much.
    Mr. Santos, is there any statistical benefit in requiring 
the Bureau to deliver apportionment data by the end of the year 
despite having been forced to suspend field operations for 
three months? Shouldn't the Bureau actually have been given 
more time than usual to finish its work rather than less?
    Mr. Santos. I concur with that statement. As far as risks 
of accuracy of counts are concerned, the shorter amount of time 
that the Bureau has to produce quality data, the higher the 
risk that something is going to go wrong.
    Mr. Santos. OK. Do you agree with this decision to rush the 
count and data processing could affect the quality and the 
accuracy of the data assembled?
    Mr. Hice. I cannot see Mr. Raskin.
    Mr. Mihm. Yes, sir. Thank you.
    From the data processing standpoint, it does have risk. The 
initial plan from the Census Bureau--this is all pre COVID--was 
to have 150 days of data processing. That then went down to 
about 90 days, and now it is down to 77 days.
    And so, it does put more pressure on them to both be able 
to identify anomalies and then properly be able to address 
those anomalies that they do identify.
    Mr. Raskin. OK. Thank you.
    Madam Chair, am I visible now? I was being told I wasn't 
on.
    Chairwoman Maloney. You are now visible.
    Mr. Raskin. OK. Thank you.
    So, Madam Chair, I heard some of our colleagues refer to 
wild conspiracy theories, but they never got around to the 
major one emanating from the President of the United States 
today who invites us to believe that somehow there is a 
conspiracy of dozens of Republican and Democratic election 
officials and Secretaries of state around the country, Federal 
and state judges around the country, all of whom have rejected 
his ridiculous and nonsensical attacks on the election.
    So just as the President has been waging sabotage on the 
American electoral process, he has been waging sabotage and war 
on the Census, which is, of course, central to the success of 
the electoral process in America.
    The administration tried to impose a citizenship question 
on the 2020 Census completely outside of lawful channels and in 
a way designed to distort and depress Census participation. It 
refused to back off this plan until the Supreme Court struck it 
down as arbitrary and unlawful.
    Then when coronavirus hit and forced delays in the Census 
and Secretary Ross and Director Dillingham originally tried to 
do the right thing by seeking a 120-day extension to deliver 
the apportionment counts to the President, then politics took 
over again and the President reversed course.
    And in September the administration abruptly forced the 
Bureau to shut down data collection a month early and insisted 
that it still produce the final results by December 3l.
    So, he we are just seeing a series of outrageous attempts 
to undermine and subvert the 2020 Census, just like the 
outrageous attempts to undermine and subvert the 2020 election 
by the President. And now, of course, they want to ignore the 
plain text of the Constitution and overturn centuries of 
governmental practice by not counting all of the persons in the 
United States as clearly directed by the Constitution.
    And, Mr. Mihm, let me come to you on that. Is it not the 
case that there has been an unbroken practice of more than two 
centuries of counting every person as commanded by the 
Constitution?
    Mr. Mihm. Mr. Raskin, that is my understanding. What I can 
speak of from experience is I've been working on Census issues 
since the 1990 Census. In 1990, 2000, 2010, I don't recall this 
as being a topic even of minor conversation in any of those.
    Mr. Raskin. The 14th Amendment says Representatives shall 
be apportioned in several states according to their respective 
numbers, counting the whole number of persons in each state. 
And there are a number of occasions in the Constitution where 
the word ``citizens'' is used very deliberately and other 
occasions when the word ``persons'' is used.
    And the reason why we have this unbroken practice going 
back to the very first Congress is because it is very clear 
that the Constitution said that when we count, we count the 
whole number of persons.
    And let me ask you, if you were to follow the President 
down this particular primrose path, do we even have a way of 
counting people in different citizenship and immigration 
categories? Is there a data base in the Federal Government that 
states with accuracy the citizenship status of every person who 
is in the country?
    Mr. Mihm. Mr. Raskin, unfortunately, I am not able to be 
overly helpful on that. That is not something that we have 
looked a lot at. I know that the Census Bureau is looking at 
literally dozens of different Federal data bases. The overall--
the individual and collective accuracy of those data bases is 
not something that I can speak to, sir.
    Mr. Raskin. OK. And all of that is to say we are not set up 
to do this because it is not what the Constitution calls for. 
This is yet one more effort by the administration to politicize 
and destabilize and disrupt the Census in violation of the 
Constitution, the laws that we passed in Congress to implement 
the Census in more than 200 years of unbroken precedent.
    I yield back to you, Madam Chair.
    Chairwoman Maloney. Your time has expired.
    We will now go back to Mr. Gosar, and we will set the clock 
at two minutes and 30 seconds.
    Mr. Gosar, you are now recognized.
    Mr. Gosar. Thank you. And sorry for the inconvenience, 
Madam Chairwoman.
    I would first like to address the previous gentleman, my 
colleague from Maryland, in regards to his comments in regards 
to the election. I want to remind this committee that it is 
none other than the gentleman from Maryland that had some 
disbelief in regards to the voting machines that were utilized 
in 2016 and the fraud that was in that election.
    In fact, the gentleman actually introduced legislation to 
actually--to have Federal oversight over the machines. So let's 
be careful what we ask for. And I think I would be watching 
Arizona as of yesterday and today in regards to what the 
machines have done and that has been picked up on. So I think 
all of us want a fair election. One legal vote is cast for one 
legal individual.
    Attorney General Landry, I want to get back to you. You 
know, you were talking about the migration of votes from blue 
states to red states like mine. Do we have the means to track 
these migratory patterns to ensure that Americans count in, 
say, California several months ago who have since moved to 
Arizona are currently apportioned to their current location, 
not their former residence? Do we have the means to do that?
    Mr. Landry. I'm sure we have of the means to do that, yes. 
I would believe that the Federal Government would have the 
means to track that.
    Mr. Gosar. And shouldn't that be part of the anomalies or 
the final dictation? Because we are seeing--I mean, my 
understanding is it is being reported almost 800 people a day 
leaving the New York state for Florida and southern states. So 
it seems like that would be a very valid number to follow, 
would it not, Attorney General Landry?
    Mr. Landry. It would be an interesting number, and I would 
guess that the U.S. Postal Service would be able to provide 
that information to the Census Bureau based upon the fact that 
those people that would migrate from, say, a state like 
California and New York, when they would go and seek residence, 
say, in a state like Florida or Georgia or North Carolina would 
be changing their address.
    Mr. Gosar. Something like what we have seen Democrats 
actually do in Georgia is say, come and register in Georgia for 
this next election? Is that something----
    Mr. Landry. I'm sorry, the question broke up. Could you 
repeat it?
    Chairwoman Maloney. Can you repeat the question, Mr. Gosar? 
You broke up.
    Mr. Gosar. Can you hear me, Madam Chairwoman?
    Chairwoman Maloney. Now we can hear you, but we couldn't 
prior.
    Mr. Gosar. Mr. Landry, we have seen Georgia Democrats 
actually ask people to come and vote in Georgia----
    Chairwoman Maloney. We can't hear you now. We are having 
connection issues.
    Mr. Gosar. I will submit my questions for the record. I 
yield back.
    Chairwoman Maloney. OK. Mr. Grothman, you are now 
recognized. Mr. Grothman.
    Mr. Grothman, would you please unmute?
    Mr. Grothman. Can you hear me now?
    Chairwoman Maloney. Yes, we can.
    Mr. Grothman. OK. Good. Couple of questions.
    First of all, with regard to immigrants, as I understand it 
right now, are there immigrants in the United States, 
particularly from Mexico, who are voting in Mexican elections, 
as I understand that? So we can go with Mr. Landry, but 
otherwise someone else can answer it too.
    Mr. Landry. Could you repeat the question, sir?
    Mr. Grothman. As I understand it, there were articles a few 
years ago that Mexican immigrants in the United States, and 
particularly illegal immigrants, but Mexican immigrants are 
voting or vote in Mexican elections. Is that true?
    Mr. Landry. I don't know that to be an accurate fact. But 
you can presume that if someone entered the country illegally 
and is still a citizen of Mexico, then they could either return 
to Mexico and vote----
    Mr. Grothman. Do any of the other three people want to 
answer that question? I mean, I found out, you just Google it 
and it shows up. I was right in remembering that happens, that 
efforts are being made by Mexican politicians to get people in 
America to vote in the Mexican elections.
    Any of the other three of you folks have a comment on that?
    Mr. Santos. I would say it is safe to presume it is true if 
you have a question following that.
    Mr. Grothman. Well, it is true. I mean, you just Google it, 
and you will find out that it is true. And I guess I think that 
is a little unusual. Is it then--I wondered if that is true 
where they register in Mexico--I assume they must have a 
permanent residence--and, if so, are they being counted for 
Census purposes in Mexico as well?
    Anybody know?
    Shouldn't we know that? We have four experts here. Are 
people who are here illegally in this country, are they being 
counted? I mean, I would assume within America--well, I will 
ask another question then.
    If I am an American citizen and I want to spend three 
months, taking a student, spend three months in Great Britain 
as a student for the fall semester, am I then counted for the 
U.S. Census or not counted for the U.S. Census if I am actually 
going to be there for a year or less than a year? What happens 
there?
    Mr. Mihm. Sir, Chris Mihm here. All I can speak to is what 
the residency rules that the Census Bureau uses or the U.S. 
Census Bureau is and that they would----
    Mr. Grothman. Well, my question is--see, it is highly 
relevant because we don't count people in two places, OK. If I 
live in Fond du Lac, Wisconsin, and I am a student at the 
University of Wisconsin at Madison, it was earlier said that we 
have a problem here because a lot of people double count, 
right? Mom and dad think Missy is a Fond du Lac resident, but 
maybe Missy is filling out her own form at the dorms in 
Madison. And we don't want her double counted.
    I think it is highly relevant as to whether people who are 
in this country are being counted twice, in this country and in 
other countries as well. Does anybody know that? You are all 
experts on Census.
    Mr. Santos. I can say definitively, based on Census Bureau 
research, that 8.5 million people were duplicates in the 2010 
Census, and I expect that to be much greater this time around.
    Mr. Grothman. What percentage?
    Mr. Santos. It was 8.5 million people were duplicate 
records, erroneous records that were included in the counts of 
the Census in 2010. And they, plus some erroneous inclusions, 
ended up counterbalancing the 16 million people that were 
totally omitted, missed from the 2010 Census. And that is the 
only reason that the Census in 2010 was hyper accurate.
    Mr. Grothman. OK. So you believe this time as well it might 
be counting 8 million, 10 million people twice, be they college 
students----
    Mr. Santos. I think the duplication problem is going to be 
on steroids and it's going to be much greater.
    Mr. Grothman. OK. Well, that is reassuring.
    Is any effort being made to make sure that if people are 
saying their residence in Mexico, let's say, or any other 
country, that they aren't also residents here? Does the Census 
Bureau do anything about that?
    No? We don't care? Or all of a sudden we don't worry about 
accuracies? We are so accurate that we have 99.98 percent of 
the addresses, we are doing something with them, but we have 
got millions and millions of people who might be double counted 
in this. And when you give me these double counted numbers, is 
that just people that are double counted living in this country 
or does that mean double counted like you are counted in the 
United States and in another country?
    Mr. Santos. It's a combination of things. It includes the 
college students counted in college town, as well as home. It 
includes divorced families, each parent of which wants to claim 
their own kids. And it includes a lot of folks that have second 
homes. So if you live in Minnesota and like to spend your 
winters in the Rio Grande Valley, you can end up showing up 
twice because you filled out the form in each location.
    Mr. Grothman. Well, that is reassuring. We found something 
new today.
    Chairwoman Maloney. The gentleman's time has expired. Thank 
you very much.
    And we now recognize Mr. Sarbanes. Mr. Sarbanes, you are 
now recognized.
    Mr. Sarbanes. Thank you very much, Madam Chair. Can you are 
hear me OK?
    Chairwoman Maloney. We can. Yes, we can.
    Mr. Sarbanes. Great.
    Mr. Santos, I wanted to get your thoughts on a few things. 
You co-chaired the Task Force of Census Experts at the American 
Statistical Association, and you have said in your capacity as 
co-chair that because it is data, our foundation for our 
democracy, commerce, and everyday lives, the Nation deserves 
publicly available indicators to assess the credibility of the 
final counts.
    And I appreciate your testimony here today reinforcing this 
notion of accountability, of transparency, the accuracy of the 
data, and the importance of bringing in outside experts who can 
give the public more confidence that the Census is being 
conducted in an accurate fashion.
    Are you satisfied that the Census Bureau has provided all 
the data that you and other experts need to assess the quality 
of the Census count?
    Mr. Santos. Frankly, that simply has not occurred. We want 
very much for there to be more transparency. We've outlined in 
our document, in our work force report, the indicators that we 
know exist and could be easily generated and put out to the 
public and to researchers so that we could establish for 
ourselves independently the quality of the Census counts.
    There's no question that there are going to be strengths 
and blemishes to the Census counts. There are in any Census. 
However, this time, because of COVID and all of the challenges 
that I reviewed, I and others reviewed, over the course of our 
opening statements, we think that there is a severe risk for 
there to be highly differential quality aspects to the counts 
across the country.
    Mr. Sarbanes. I want to ask you about two relatively 
specific components of the data. One is getting these measures, 
these quality measures, assessed at the Census tract level. I 
would like you to speak to why that is important.
    And then the second has to do with the nonresponse followup 
classes, and I understand those numbers sometimes can be put 
inside of the overall percent completion rate at the state 
level, but it is important to break out the nonresponse 
followup and understand exactly what has happened with that.
    So, if you could speak to those two particular issues, I 
would appreciate it.
    Mr. Santos. Sir, it is, as actually Joe Salvo has 
indicated, incredibly important to get detailed quality 
indicators down to the Census tract level because we need to 
know whether some communities--Census tracts basically are 
neighborhood level types of indicators. We need to know the 
extent of which there are real problems, not just knowing the 
total number of people there, but knowing their makeup so that 
we can plan for things like schools and fire stations, and 
things of that sort.
    Not to mention--or not only that, but in terms of political 
representation, if you have a collection of Census tracts that 
is undercounted whereas the other, say, suburban Census tracts 
are overcounted, you are going to set up the inequality that--
and inequity that we have heard throughout this hearing thus 
far, where individuals end up getting less representation and 
Federal funding than they deserve while others get more than 
they deserve.
    Mr. Sarbanes. I appreciate that. And I want to emphasize 
what you just said because, fundamentally, the Census is about 
giving every person in this country the opportunity to stand up 
and to be counted, and if you don't have that kind of accuracy 
at the Census tract levels, you just indicated you can have a 
situation where some--the voice of some people in some 
neighborhoods, in some communities is being given more weight 
than the voices of other communities and other individuals in 
our country.
    And so, you can perpetuate some of the unfairness and 
imbalance distribution of sort of political power and voice 
across the country that already exists in so many ways. The 
Census ought to be combating that unfairness, making sure that 
everybody's voice is given equal weight. So, I appreciate you 
emphasizing that.
    And that is why it is so critical, Madam Chair, that the 
accuracy and transparency and integrity of this process be 
protected, and I appreciate the opportunity to have us address 
that today in the hearing.
    And with that, I would yield back.
    Chairwoman Maloney. The gentleman yields back.
    Mr. Palmer, you are now recognized for questions.
    Mr. Palmer.
    Mr. Palmer. Thank you, Madam Chairwoman.
    This is a rapid response question. It is a yes or no, so if 
you would answer yes or no.
    General Landry, should we allow noncitizens, regardless of 
their legal status, to run for office in the United States?
    Mr. Landry. Could you repeat that again, Congressman?
    Mr. Palmer. I said should we allow noncitizens, regardless 
of their legal status, to run for office in the United States?
    Mr. Landry. Oh, no, sir.
    Mr. Palmer. OK. Mr. Mihm, same question; yes or no.
    Mr. Mihm. Sir, that's not something as a support agency to 
Congress that I can offer an informed view on.
    Mr. Palmer. Sure, you can. It is the law. I assume you are 
familiar with the law. It is a yes or no.
    Mr. Mihm. To the extent it is consistent with the law, I 
would agree; but beyond the policy concern, that is not 
something I can speak to.
    Mr. Palmer. Well, I am not asking you a policy question. I 
am asking you a question as to whether or not noncitizens, 
regardless of legal status, should be allowed to run for office 
in the United States.
    Mr. Mihm. OK----
    Mr. Palmer. Mr. Salvo, yes or no?
    Mr. Salvo. I would say, based on the law, that would guide 
my judgment.
    Mr. Palmer. Well, it is a yes or no.
    Mr. Salvo. If the law does not permit it, the law does not 
permit it.
    Mr. Palmer. So your answer is no?
    Mr. Salvo. My answer is, if that is the law of the land, 
that is indeed the law of the land. I would have to respect the 
law of the land.
    Mr. Palmer. Well, I am going to take that as an unmitigated 
you don't want to answer.
    Mr. Santos?
    Mr. Santos. Actually I very much resonated with Mr. Salvo's 
response. If the laws--if that is the law, then we should 
follow it.
    Mr. Palmer. Then we shouldn't allow them--should we allow 
them to make financial contributions or in kind contributions 
to candidates?
    General Landry, yes or no?
    Mr. Landry. No.
    Mr. Palmer. Mr. Mihm?
    Mr. Mihm. Well, sir, the law should be followed on this, 
whatever the law will be, and it is beyond my knowledge of the 
precise requirements here.
    Mr. Palmer. The law says no.
    Mr. Salvo?
    Mr. Salvo. If the law says no, I would respect that.
    Mr. Palmer. Mr. Santos?
    Mr. Santos. Consistent with the law, I would say no.
    Mr. Palmer. Thank you.
    Should undocumented residents, regardless of their--well, 
should noncitizens, regardless of their legal status, be 
allowed to vote in our elections?
    General Landry?
    Mr. Landry. No.
    Mr. Palmer. Mr. Mihm?
    Mr. Mihm. Again, it is whatever, sir, whatever the legal 
requirements are, we would believe the legal requirements 
should be followed.
    Mr. Palmer. I will take that as a no.
    Mr. Salvo?
    Mr. Salvo. I would conform with the rules of the law. If 
the law--whatever the law says, I would respect that.
    Mr. Palmer. Mr. Santos?
    Mr. Santos. What Mr. Salvo says, I would say no.
    Mr. Palmer. Well, I am--given those answers, should votes 
cast in this last election by noncitizens, including people 
residing here illegally, be counted and allowed?
    General Landry?
    Mr. Landry. Is that a yes or no?
    Mr. Palmer. Yes or no?
    Mr. Landry. No, they shouldn't be counted.
    Mr. Palmer. Mr. Mihm?
    Mr. Mihm. Votes should be counted consistent with the law, 
sir.
    Mr. Palmer. Mr. Salvo?
    Mr. Salvo. Same. Votes should be counted consistent with 
the law?
    Mr. Palmer. Mr. Santos?
    Mr. Santos. No.
    Mr. Palmer. OK. Here is my point. Obviously a couple of you 
would like to equivocate on this a bit, but we really--we 
should count everybody, but not everyone should be counted for 
apportionment purposes.
    And one of the reasons that that is the case is the 
transient nature of a lot of the people who are residing here 
as noncitizens. About a third of the people who reside here 
will not be here for the next Census. So it makes no sense to 
count noncitizens for apportionment purposes particularly when 
about six states account for over half of it.
    General Landry, are you concerned about the fact that there 
are states that have declared themselves sanctuary states, in 
violation of Federal law, to protect people who are residing in 
the country illegally?
    Chairwoman Maloney. The gentleman's time has expired, but 
the gentleman may answer the question.
    General Landry.
    Mr. Landry. Thank you, Madam Chairwoman.
    Yes, I'm extremely concerned. I've been concerned about it 
now for five or six years and have expressed and documented 
well known statistics that show how unsafe these communities 
are and that it is a public safety crisis.
    Mr. Palmer. Madam Chairman, I couldn't see the clock, and 
that seemed like a quick five minutes.
    Chairwoman Maloney. Your time has expired.
    OK. Ms. Kelly----
    Mr. Palmer. All right. I yield back.
    Chairwoman Maloney. Ms. Kelly, you are recognized for 
questions.
    Ms. Kelly.
    Ms. Kelly. Thank you, Madam Chair. I didn't know I was 
next, OK. Sorry.
    I want to ask our witnesses about what goes into fixing the 
data problems that career Census Bureau staff identify in the 
documents obtained by the committee. Document No. 1 includes a 
slide on page four entitled ``Comprehensive Patch Development 
Test and Computation Strategy.'' This slide lays out a detailed 
11-step process that the Census Bureau will follow to try to 
correct these errors. It includes developing patches to fix the 
errors, testing those packages----
    Ms. Lawrence. Hello, Madam Chair. Can you hear me?
    Ms. Kelly [continuing]. And then verifying that they solved 
the problem.
    Mr. Mihm, why is it important for the Census Bureau to go 
through each of these steps when fixing the 15 different data 
problems they discovered?
    Mr. Mihm. Well, thank you, ma'am, for the question.
    The importance of this is that each of these 15 critical 
anomalies, as they refer to them being critical, has its own 
set of root causes, its own set of problems, and they need to 
make sure, as your question implies, both that they get the 
individual fixes right, but then the comprehensive patch, make 
sure that it all works together, that it can all come together 
again and provide an accurate count.
    Again, this is just the first step or one of the early 
steps, I should say in, the data processing. They have more to 
do but even after the comprehensive patch is put in place and 
successful.
    Ms. Kelly. Thank you.
    Let me turn to another slide in the same document. Slide 
seven is entitled ``Considerations and Risks.'' The fourth 
bullet states, ``If the sequencing of patch deployment isn't 
executed properly, it may result in other data anomalies.''
    Mr. Mihm, why is it critical that the Bureau properly 
sequences the steps to fix each of the data problems they 
discovered?
    Mr. Mihm. Because the key point there is that subsequent 
data processing is dependent upon the earlier steps, and so 
there is a critical path. In some cases, they can do 
processing, you know, simultaneously, different types of 
things. They're now at the point that they cannot move forward 
or largely cannot move forward to a subsequent step until they 
have fixed everything, all preceding steps. And that's the 
concern that they have now.
    Ms. Kelly. OK. The three documents the committee obtained 
lay out the Bureau's detailed step-by-step timeline to fix 
these data problems. If the Bureau was forced to shortcut that 
process in the middle, could that impact the accuracy of Census 
data, Mr. Mihm?
    Mr. Mihm. The short answer to that, ma'am, is yes. And I 
think that the Census Bureau professionals would certainly 
share that view as well.
    Ms. Kelly. Thank you.
    Document one also warns on page seven that more data 
problems could still be discovered. It states--and I quote--if 
anomalies are identified, they will be checked, assessed, and 
additional time may be required for comprehensive relief.''
    Mr. Mihm, given that at least two new data problems were 
discovered in the last two weeks, do you think it is possible 
that the Bureau will discover additional problems over the next 
month that will take more time to fix?
    Mr. Mihm. I'd go beyond that, ma'am, and say it's not just 
possible, it's probable. And the Census Bureau actually expects 
that there will be some additional anomalies, but they're 
hopeful--and that's based on history in 2010 and earlier.
    What they're hopeful is that these will be manageable and 
relatively small, in which case then they think they can 
maintain a schedule. Where they would get problematic for the 
Census Bureau is if there are many of them or, you know, 
depending on the significance of those anomalies.
    Ms. Kelly. Thank you so much.
    It sounds to me like this is a process that cannot be 
rushed. The Bureau can fix these data errors, but that process 
must be done deliberately and carefully.
    With that, I yield back. Thank you, Madam Chair.
    Chairwoman Maloney. Thank you very much.
    And, Mr. Higgins, you are now recognized for questions.
    Mr. Higgins. Thank you, Madam Chair.
    Thank you, Madam Chair. Thank you for holding this hearing. 
I appreciate the witnesses for appearing before us today, 
especially my dear friend and Attorney General from Louisiana, 
Jeff Landry.
    My colleagues have stated again and again during this 
hearing and others that we need to get this right, we need to 
get it right, the Census. I would agree.
    But the most significant identifier for getting it right 
for the American people is the question of, after this Census, 
what will happen with apportionment regarding congressional 
representation in our representative republic as that relates 
to illegal residents present here in American, counted for the 
Census but used for the purpose of apportionment.
    May I say that Americans, by and large, that I speak to 
across my district and across the country, are shocked when 
they are advised that this Census could result and likely will 
result in the reapportionment of congressional representation 
at the expense of legal rural Americans, state by state--
several states could be impacted--to the benefit of illegal 
residents in densities of populations in states that are 
identified as sanctuary states.
    It's shocking to Americans to think that their Congress, 
their Congressman or their Congresswoman, could be districted 
out, that their state could actually lose a seat so that 
California could get another seat because of illegal residents 
being counted for the purpose of apportionment.
    Attorney General Landry, you and I have had long 
conversations about the Constitution. Our Constitution begins 
with ``We, the people, of the United States.'' It does not 
begin with we, the people of the world, or we, the people of 
the United States, plus whoever happens to be here illegally.
    For the purpose of apportionment, sir, can you explain how 
allowing illegal residents to be counted for congressional 
representation apportionment, how that would impact America?
    As a former Congressman yourself, and you continue to serve 
honorably, the entire Nation, I thank you, Attorney General 
Landry, please give America an overview of just how potential 
this problem and the reality of this is and what will happen? 
Where will these seats go? There are only 435 congressional 
seats.
    Tell America, Attorney General Landry, what will happen if 
illegal residents are counted for the purpose of apportionment 
in this Census.
    Mr. Landry. Well, to start off with, thank you, 
Congressman, I appreciate it. To start off is to recognize what 
the goal is in reapportionment, and that is for everybody's 
vote to be counted the same, to have equal weight across the 
country in the House of Representatives.
    And so when you have a state with larger populations of 
illegal immigrants like, say, California, who can't even vote 
in those congressional--or are not supposed to vote in those 
congressional districts, but then you count them in the Census, 
you amplify the citizens who can vote, the legal citizens, in 
that congressional district against, you disenfranchise them.
    You disenfranchise citizens, say, in Louisiana, right, 
because you are amplifying the votes of those citizens against 
the votes of citizens, say, in Louisiana, and, therefore, you 
are diluting those citizens in Louisiana whose votes are not 
being granted equally, say, to those votes in California. And 
that's the problem.
    We should only be counting American citizens in the country 
in terms of reapportionment, so that as we apportion 
congressional seats across the country, American citizens are 
granted equal weight across the country in representation in 
the House of Representatives.
    Again, you disenfranchise, say, African Americans in 
Alabama, Minnesota, Ohio this year who this decade may lose 
representation in those particular states because we are 
including illegal immigrants, illegal aliens in the Census 
count for reapportionment.
    Mr. Higgins. Thank you.
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Higgins. Madam Chair, time has expired. I thank you 
very much and God bless you, ma'am, for holding this hearing.
    Chairwoman Maloney. Thank you.
    Mrs. Lawrence, you are now recognized for questions.
    Mrs. Lawrence. Thank you so much, Madam Chair.
    As you know, I represent the city of Detroit. And, Mr. 
Joseph Salvo, in your testimony you recognize how important it 
is, first, that it is enough time to deal with the problems 
caused by this pandemic and, second, that the data is 
transparent, detailed, and high quality enough.
    In spite of extraordinary efforts, Detroit final self-
response was barely over 50 percent. I fear too many households 
were counted using less reliable methods. Example: Examining 
administrative records, interviewing neighborhoods and 
landlords, and so on.
    Is my concern legitimate? And, if so, what could that mean 
for the accuracy of our final numbers?
    Mr. Salvo. Your concern is very legitimate, Congresswoman. 
Like in New York, we have many neighborhoods where self-
response was very low. And as I have indicated, the Census 
Bureau has taken steps to close the gap, and in many cases 
those steps may not have resulted in actual contact with a 
household member.
    We need to know so that we can have confidence in the 
Census and what they've done. We need to know how much of that 
happened. We need to know how many housing units were declared 
to be vacant, how many might have been deleted from their list. 
We need to know how many proxy responses were used. All of 
these will give us a gauge so that, frankly, we can have 
confidence that the career professionals have done what they 
need to do.
    Mrs. Lawrence. I also want to state that an undercount in 
Detroit likely will cost the city 1.3 million CDC grants to 
help prevent childhood lead poisoning, which is an issue in our 
city. The money could have helped the city test more kids for 
lead.
    Knowing this and what might be the effects of the anomalies 
on historically undercounted groups, specifically young 
children, low-income families, Black and indigenous and other 
communities of color, I want to know what can--how can we 
provide a guess on what kind of anomalies might come up in the 
next stage of data processing?
    Mr. Salvo. I want to go to something that Mr. Santos said 
earlier about duplication, about the idea that the Census 
Bureau needs to get a handle on how many people were living as 
of April 1 in the city of Detroit, for example, or the city of 
New York. There was considerable dislocation. A lot of it we 
believe is temporary, but it caused a lot of confusion.
    People may have answered in two different locations. The 
Census Bureau needs time to sort this out. If they do not sort 
it out properly, the number of people that would be, for 
example, put back into Detroit as of April 1 because they may 
have left or put back into New York City as of April 1 will be 
smaller than it needs to be.
    I want to mention something earlier that has not come up, 
which is on the Census form itself, they ask if you have 
another residence or if you live someplace else, you lived 
elsewhere. It takes time to get that information, to look at 
administrative records, to look at all of the sources. Maybe 
they don't have a name on the questionnaire.
    The Bureau needs the time to figure it out. If they don't, 
we could get hurt, the city of Detroit, the city of New York, 
and the funds that go with that will also take a hit.
    Mrs. Lawrence. Thank you so much.
    Mr. Salvo. Thank you.
    Chairwoman Maloney. The gentlelady yields back?
    Mrs. Lawrence. I yield back. Thank you.
    Chairwoman Maloney. The chair now recognizes Mr. Keller. 
You are now recognized, Mr. Keller.
    Mr. Keller. Thank you, Madam Chair, and thank you to all 
the witnesses for being here today.
    The Census is an incredibly important topic, and this 
committee's work on the matter has been essential for the hard-
to-count people, like the rural parts of Pennsylvania's 12th 
congressional District. We need to ensure the Census Bureau has 
the resources and support it needs to successfully complete 
this work.
    By all accounts, Director Dillingham and the Census Bureau 
are on track to deliver a complete and accurate count. 
Anomalies being brought up during this hearing affect less than 
63 one-hundredths of a percent of the data being processed, and 
the director himself has said that these types of anomalies 
have occurred in past Censuses.
    While I appreciate the chair holding this hearing today, 
the President's executive order on apportionment should not be 
controversial. Since we do not use data about the number of 
people visiting this country for the purpose of determining 
congressional districts, by that same logic, we should not use 
the number of illegal aliens either.
    Mr. Landry, what kind of discretion does the executive 
branch have to promote equity when determining apportionment 
numbers?
    Mr. Landry. Well, first and foremost, Congress has granted 
the executive department tremendous amount of discretion in 
order to conduct the Census count, and--and so they're--and, of 
course, they have to comply with the Constitution as well. And 
so, the Supreme Court has said so much in a case called 
Franklin v. Massachusetts.
    So there is no question that excluding illegal aliens from 
apportionment promotes equality, because it prevents voter 
dilution. It's interesting that many of the witnesses today, 
especially Mr. Santos, has consistently reiterated--and I agree 
with him--that people of color are being disenfranchised, but I 
would submit that they're being disenfranchised because we're--
we are including illegal aliens in the count for 
reapportionment.
    Mr. Keller. And you actually mentioned the Supreme Court 
decision. I believe that was Franklin v. Massachusetts. Could 
you elaborate on the importance of that decision with respect 
to the apportionment?
    Mr. Landry. Yes. So, in the Franklin case, the Supreme 
Court considered whether to allow Federal employees serving 
overseas to be counted for the purpose of their home state's 
apportionment, and the Supreme Court said yes, that basically 
the Secretary had the discretion under which to determine 
whether or not they wanted to be counted or not.
    And they specifically said that--the Court specifically 
said that the Secretary wielded a very broad authority to 
conduct the Census in a way that promotes equality, and so that 
grants the Secretary a broad amount of discretion.
    Now, it's important to recognize that it's Congress--it's 
you all that gave the Secretary that wide discretion.
    Mr. Keller. Thank you. And I just want to followup on 
another thing. Article I, section 2 of the Constitution uses 
the term ``whole persons'' with respect to apportionment.
    Can you clarify the difference between whole persons and 
all persons?
    Mr. Landry. Yes. You know, they--look, if you take Justice 
Scalia's comments where he warned against what basically is 
wooden textualism when interpreting statutory text. The statute 
should not really be interpreted strictly or loosely, but 
basically, it should be interpreted reasonably.
    So let's say no one has ever interpreted the phrase ``whole 
number of persons'' to include every person in the country, 
because we don't count tourists. We don't count corporations, 
but yet, corporations are persons as well.
    So, again, it just goes back to emphasizing the fact that 
Congress has granted the Secretary broad discretion in 
determining how to define that and who exactly to include and 
not include.
    Mr. Keller. Thank you. I appreciate that, and I yield back.
    Chairwoman Maloney. Gentleman yields back.
    Mrs. Plaskett, you are now recognized. Congresswoman 
Plaskett?
    Ms. Plaskett. Thank you so much, Ms. Chairwoman. Thank you 
for holding this hearing.
    As you may be aware, to any of the witnesses, the American 
Community Survey, in the small area of income and poverty 
estimate of the Census are not inclusive of the territories of 
the United States, even though these areas of the United 
States, nearly 4 million U.S. citizens, are included in the 
decennial Census. A parallel version of the American Community 
Survey exists for Puerto Rico, but not all of the other 
territories.
    In all of the territories, including Puerto Rico, some of 
the highest poverty areas in this country, are not included in 
the small area income and poverty estimates of the Census. I 
have been on record in favor of including all of these 
territories in the Census surveys and data.
    Are any or all of you familiar with those surveys, both the 
American Community Survey, or the small area income and poverty 
estimates, and would any of you be able to briefly describe 
what each of them does briefly for us?
    Mr. Salvo. Yes. I work a lot with the American Community 
Survey. It is the basis for the description or picture--drawing 
a picture of the socioeconomic characteristics of the Nation. 
Information that used to be captured on what was called the 
U.S. Census long form, but the Census long form stopped in 
2000, and we--in 2005, we had the first American Community 
Survey.
    It is a very large sample of the Nation's population, and 
it is used as the basis for all kinds of work: school planning, 
I can tell you from my agency, my position, that we use it for 
everything. Again, education, income, how people travel, get to 
work, all kinds of information that is very, very useful for 
city planners, for example, or for rural planners, or for 
anyone who is interested in the characteristics of the 
population.
    Ms. Plaskett. Or for us as, legislators, to be able to 
utilize that information to show why our areas need funding or 
don't need funding. So thank you very much, Mr. Salvo.
    One of the things I'm concerned with is, because the 
territories are not included and because we are some of the 
highest poverty levels in the country--that's not a--that's not 
an estimate, that is a fact. And the primary reason we've been 
told that we have not been included is the lack of the 
territories have been around insufficient funding, or lack of 
availability of funding.
    In any of your opinion, what would be the benefit of 
including the territories--that's 4 million--for all of my 
colleagues, these are American citizens, not just residents, 
citizens, fighting our wars, a part of the draft. What would be 
the benefit to us of being a part of the Census--of those other 
surveys that are done?
    Mr. Salvo. You would have a picture of the social and 
economic characteristics of the areas you're talking about. My 
knowledge of the Puerto Rico Community Survey, in that case, 
it's actually very thorough. And, again, with a substantial 
sample, and provides you probably with the basis for the 
statements that you made earlier.
    As far as the outlying areas are concerned, that is a 
matter of policy, and it is a matter of funding that has to be 
determined within the Congress, and an appropriation needs to 
be made for that purpose.
    But there is no question that it would benefit from 
understanding the characteristics of the population. That 
actually is a benefit to the rest of the Nation.
    Ms. Plaskett. Thank you. May I just ask: The natural 
disasters, how has--how might that have affected Census taking 
and the Census count in, areas like the Virgin Islands and 
Puerto Rico, Northern Marianas, that have not, in any way, 
nearly recovered from natural disasters in the past three 
years?
    Mr. Santos. I can--sorry. I--it crippled the ability of--to 
take the Census in those areas. There is no infrastructure. The 
people are still suffering to this day. And so, it's tough to 
motivate them to participate, even if you can send enumerators 
out there. So, there is going to be a lasting impact on the 
inability to properly account for the citizens of Puerto Rico 
because of the disasters and the impact on the ability to take 
the counts.
    Chairwoman Maloney. Your time has expired. I now recognize 
Mrs. Miller. You are now recognized for questions. 
Representative Miller. We can hear you.
    Mrs. Miller. OK. Good. I'm glad. Thank you, Chairwoman 
Maloney and Ranking Member Comer.
    And I appreciate you all being here today as witnesses.
    As the Census nears its conclusion in these coming weeks, I 
want to commend the work that has been done by the Census 
Bureau to complete this year's count, given the difficult 
circumstances that have been created by the virus and the 
pandemic.
    West Virginia could have easily been one of the most 
difficult states in the Nation to complete this year's Census 
count. But, instead, it appears that it's going to be a 
resounding success, and I would like to thank the Census Bureau 
for their diligent efforts during this time.
    I strongly support the President's action to protect the 
sanctity of our constitutionally mandated apportionment 
process, so that all American citizens are represented fairly 
and accurately. I get disappointed when I think about the fact 
that my colleagues across the aisle and the media cheerleaders 
spent the last four years covering conspiratorial actions and 
ideas, instead of really working on what we should be working 
on.
    And the Supreme Court is hearing argument right now on the 
case that will decide the apportionment, and the Census Bureau 
will be delivering their completed product within the next 
weeks.
    Attorney General Landry, how will states like West 
Virginia, who abide by Federal immigration laws, be negatively 
impacted by unfair apportionment policy?
    Mr. Landry. Thank you. Yes. As I explained earlier, when 
you include illegal aliens in the Census count for the basis of 
reapportionment, states like West Virginia, who may have a high 
population, say, of senior citizens, those American citizens 
are then disenfranchised by states like California that 
incentivize illegal aliens to reside and protect them in their 
particular states, and so basically, those illegal aliens are 
drawn to California.
    And then, when we count them for reapportionment, the 
congressional districts are then weighted toward California at 
the expense of states like West Virginia.
    Mrs. Miller. Exactly. Can you explain why Federal law does 
not prohibit the excluding of illegal aliens from congressional 
apportionment?
    Mr. Landry. Well, the Federal law would allow us to. 
Congress has granted the Secretary great discretion in order to 
apply those types of facts. In fact, I explained earlier, on a 
case that the Supreme Court had issued in--under which the 
Supreme Court said that the Secretary was granted wide 
discretion as long as it passed the two-prong test, and that 
was--No. 1 of that is that it ensures equality.
    And, of course, when you basically weight those who are in 
the country illegally, and you grant them greater weight 
against American citizens, that certainly would not pass the 
equality test, and would grant the Secretary the ability to 
exclude them in the reapportionment numbers.
    Mrs. Miller. Is there Supreme Court precedent that shows 
the Secretary of Commerce has broad discretion to determine the 
policy when it comes to the Census and the apportionment?
    Mr. Landry. Yes. In the case of Franklin v. Massachusetts, 
the Supreme Court reinstated the fact that Congress has 
granted, or delegated that authority to the Secretary of 
Commerce, and that that authority was broad.
    Mrs. Miller. Could you explain how counting illegal aliens 
for purposes of the apportionment base actually creates 
incentives that encourage states to subvert enforcement of 
Federal immigration laws so that they can be awarded greater 
representation in the House of Representatives?
    Mr. Landry. Yes. As I explained again earlier, what happens 
is, is that states that have large immigration--illegal alien 
populations will be granted greater power on the Federal stage. 
Greater resources will then basically go to those states at the 
expense of rural states that either have large senior 
populations, or large minority populations.
    So, again, you take a state under which--say, Minnesota. 
African-Americans in Minnesota will be disenfranchised at the 
expense of California, which has a greater illegal alien 
population.
    And so, again, it creates this system under which states 
are incentivized to go against the system, to basically 
encourage illegal immigration in those particular states rather 
than to abide by Federal law.
    Mrs. Miller. Thank you. I wanted to hear you say it again.
    Chairwoman Maloney. The gentlelady's time has expired.
    Mrs. Miller. I yield back.
    Chairwoman Maloney. Thank you. The gentlelady yields back.
    Congresswoman Pressley, you are now recognized.
    Ms. Pressley. Thank you, Chairwoman Maloney, for convening 
this hearing, and with the urgency that it truly deserves. We 
cannot risk endangering the livelihoods of millions of 
Americans by compromising the integrity of our Census.
    The United States of America needs a complete and accurate 
count of all people. That is what the Constitution demands. 
That is what my colleagues and I are required in order to do 
our job effectively. As lawmakers, we rely on population data 
to inform our policymaking, and to ensure that our communities 
get the fair share of more than $1.5 trillion in funding to 
support everything, from our transportation systems, to 
education and healthcare infrastructure, to small businesses, 
and to nonprofits.
    For example, look at SNAP, our Nation's most impactful 
antihunger program. Census data informs how to allocate its 
budget of more than $60 billion. Across the Commonwealth of 
Massachusetts, SNAP helps one in 10 residents. And, in my 
district, one of the most diverse and unequal, the 
Massachusetts 7th, nearly one in five households receive SNAP 
benefits.
    Food pantry lines in east Boston and Chelsea have been 
growing even longer over the past few months, underscoring why 
SNAP funding is so important. SNAP puts food on the table for 
our elders, supports our working families. It ensures that our 
children don't go hungry.
    The Census Bureau must take appropriate steps to process 
and tabulate the final Census count to ensure that social 
safety net programs, like SNAP, reach the people who need it 
the most. The ongoing pandemic has proven that these government 
programs are popular, and absolutely essential.
    So, as we chart a path for COVID recovery, the Census count 
will serve as a critical data source to ensure the hardest-hit 
communities receive their equitable share.
    Mr. Mihm, how important is the accuracy of the 2020 Census 
in ensuring a fair distribution of Federal funding?
    Mr. Mihm. Well, ma'am, I think you laid it out just exactly 
right. It is that it's instrumental. Hundreds of billions of 
dollars--in fact, estimates have been over $1 trillion that 
we've seen over the next decade will be driven--of Federal 
funds, will be driven, in whole or in part, by Census data.
    And that's not just the counts, but it's also, in some 
cases--with some programs, demographic breakdowns, whether it 
be by age or gender, you know, depending on the type of the 
program.
    So, we need to have a full and complete count, and we need 
to have that count be accurate in terms of the demographic 
characteristics if we're going to adequately and sufficiently 
allocate very scarce Federal resources.
    Ms. Pressley. And, Dr. Salvo, how much of your professional 
work occurs at the municipal level? Can you elaborate on that, 
and how issues like housing and employment are impacted by an 
inaccurate Census count?
    Mr. Salvo. Yes. All of my work--virtually all of my work is 
done in the neighborhoods of the city, and I can give you a few 
illustrations, one that is very close to my heart.
    Ms. Pressley. Please.
    Mr. Salvo. When a school has to decide to redraw a boundary 
around it, the Department of Education would come to us and ask 
us, how best do we draw this boundary?
    So, we take data for Census tracts in small geographic 
areas, and we assemble it, and we look at the number of 
schoolchildren, OK? We supplement that, of course, with the 
American Community Survey data that was shown earlier to try to 
figure out how many of those children are in need, OK? How many 
of those children are below the poverty line?
    And we create a picture for the Department of Education 
that allows them to figure out how to optimize the drawing of 
that district.
    Now, if those children are not enumerated, and are not 
accounted for in the Census and the American Community Survey, 
which is based on the Census, does not show those children to 
be present, we make decisions in the absence of information, in 
essence, and it handicaps us.
    So, I can give you a number of illustrations like this, but 
this is just one way that it really matters at a local 
geographic level what the Census Bureau has done. We need to 
understand it.
    For example, how many of those children were--were missing 
or not missing? One of the reasons why I ask this is because, 
as was alluded to earlier, omissions and duplication are not 
generally in the same place. Neighborhoods do not generally 
have this offsetting influence where you could, in essence, end 
up with the correct number by virtue of errors in either 
direction, OK? Areas with large numbers of omissions tend not 
to be those areas with a large number of what we call erroneous 
enumerations.
    So, all of this needs to be taken into account. We need to 
understand what the Census Bureau did, OK, in order to inform 
our strategies.
    Thank you.
    Ms. Pressley. And, Dr. Santos, so it's fair to say that, 
you know, for those communities historically marginalized and 
under-resourced stand to be disproportionately impacted, those 
that have been historically hard to count, Black and Latino 
neighborhoods, immigrant communities. My district is 40 percent 
foreign-born residents, and 53 percent people of color. Almost 
40 percent of our households are single-female headed. So, if 
we don't get this right, it sounds like what we will see is a 
tsunami of hurt across this issue.
    Mr. Santos. Not only that. We will be----
    Chairwoman Maloney. The gentlelady's time has expired. And 
you may answer it briefly. We've been called for a vote.
    Ms. Pressley. Thank you.
    Mr. Santos. Yes. It will continue for 10 years, and 
basically reinforce inequities that were preexisting for the--
like I said, for the next 10 years. Thank you.
    Chairwoman Maloney. The gentlelady's time has expired. 
We've been called for a vote, but I now recognize 
Representative Comer.
    Mr. Comer. Thank you.
    Chairwoman Maloney. We can hear you.
    Mr. Comer. Thank you, Madam Chair.
    Before I begin my question, let me say this: I do 
appreciate your and your members' sincere desire to ensure the 
integrity of the Census, and I appreciate your willingness to 
hold additional hearings on that.
    I wish you all had the same sincere desire to ensure the 
integrity of the 2020 election, because a lot of Americans 
expect Congress to at least hold some hearings to see what went 
wrong, and ensure that, moving forward, we don't have any 
doubts about the integrity of our election.
    That's the role that this committee can play. That's your 
decision. And I strongly encourage you, once again, to allow us 
to have a hearing as soon as possible on the integrity of the 
2020 election.
    Having said that, I want to thank Attorney General Jeff 
Landry for testifying today about a topic that's very important 
to his state and all of our states. I hope that his testimony 
in the committee today helps everyone have a better 
understanding of the President's action on apportionment, and 
excluding illegal aliens from the apportionment count.
    Attorney General Landry, on Monday, the Supreme Court heard 
oral arguments in New York v. Trump case. You filed an amicus 
brief on behalf of your state and several others. Is that 
correct?
    Mr. Landry. That is correct.
    Mr. Comer. And can you explain why you decided to file an 
amicus brief in that case, why it's so important to Louisiana 
and other states involved?
    Mr. Landry. Because what we want to ensure is that 
everyone--every American, or every--yes--every American citizen 
and every American citizen in the state of Louisiana and other 
rural states around the country, that their votes are not 
diluted.
    And by, again, counting illegal aliens for the purpose of 
reapportionment disenfranchises minorities in Louisiana, it 
disenfranchises senior citizens in Louisiana, and it can 
restrict the amount of Federal resources to those communities 
who need them the most in those particular states, and that 
those resources will then gravitate and migrate to states that 
embrace sanctuary city policies defined in Federal law.
    Mr. Comer. Each state's Member of Congress has their voice 
and their vote in Washington, and I know you agree with that. 
Giving a voice to individuals not lawfully present dilutes 
citizens' voices. Isn't that correct?
    Mr. Landry. That is correct.
    Mr. Comer. Why does including illegal immigrants in the 
apportionment base throw a wrench into the machinery of 
congressional apportionment as you describe it in your brief?
    Mr. Landry. Because, again, what happens is, is that, if 
you count illegal aliens in the country, what you will find is 
that those populations have swelled in states that have 
embraced sanctuary city policies. States like New York and 
states like California, they will gain additional congressional 
representation at the expense of states like Minnesota, 
Alabama, and Ohio.
    And so basically, you're, creating congressional districts 
that represent people who came into the country illegally, and 
do not enjoy the rights--the complete rights and privileges of 
American citizens, but yet, they will have representation in 
the House of Representatives.
    Mr. Comer. So you agree that a voter's vote in one 
congressional district should be worth equally as much as any 
other person's vote in any other district?
    Mr. Landry. That's correct. And what----
    Mr. Comer. Go ahead.
    Mr. Landry. And what's more absurd is that--so let's take, 
for instance--we all recognize--and it's not disputed by any of 
the members--that the Secretary of Commerce has excluded 
foreign tourists, people who are here in the United States on 
tourist visas, from being counted in the Census. Yet, if that 
person, under their theory, by counting them, then stays in the 
country past the point of their visa, they, for some reason, 
are now counted. Again, it leads to absurd consequences.
    Mr. Comer. And wouldn't you agree that apportioning 
according to the whole number of persons in a state can 
reasonably be interpreted to exclude illegal aliens who are 
residing in a state unlawfully?
    Mr. Landry. Absolutely. In the Supreme Court precedent, the 
Secretary has broad discretion to determine that.
    Mr. Comer. And let me conclude my questioning by saying 
this: I think an overwhelming majority of Americans agree with 
everything you said, Mr. Attorney General. That's the position 
that the Republicans on this committee have taken, and 
hopefully, the Supreme Court and the Trump administration will 
be able to do the right thing on congressional reapportionment.
    Thank you again for your testimony here today.
    Mr. Landry. Thank you.
    Chairwoman Maloney. OK. Ms. Tlaib, you are now recognized 
for five minutes. Representative Tlaib.
    Ms. Tlaib. Thank you, Chairwoman.
    Thank you all so much for being here.
    I want to make sure to share with all of the folks 
testifying today our letter--the letter that I sent, along with 
Congresswoman Lawrence on this committee, to Director of the 
Census Bureau, about some of the really great unbelievable 
concerns and allegations that we've seen come out in regards to 
the 2020 Census in Michigan.
    In Detroit, the overall self-response rate was about 51 
percent, which is lower than any other large city in the 
Nation, with some tracts as low as 4.4 percent.
    Mr. Mihm, you know, one of the things I wanted to explain 
to folks, what does it mean when you say self-response? Does it 
mean personally getting the form and responding directly?
    Mr. Mihm. So, this time, it's been a combination of that, 
ma'am. It's been that--the paper form, but it's also been a 
huge internet response option. This was an option that they had 
this time. And, in fact, almost 80 percent of the responses 
that they got of self-responses came through the internet.
    Ms. Tlaib. So, in absence of self-response, the next 
strategy for the Census, am I correct, is to employ, you know, 
other processes, protocols, and things like that, so that they 
can get a more accurate count. What are some of those other 
processes they have in place if self-response is low?
    Mr. Mihm. Well, the first big step was then to hire several 
hundred thousand Census takers to go out and actually knock on 
the doors. If they were successful, and then meeting with a 
member of that family to--or the member of the residence, 
rather, to then enumerate it, they would then complete the case 
there.
    If they were unsuccessful--and the rules, you know, are a 
little bit different--they would either use a proxy--that is, a 
knowledgeable person, a neighbor, you know, that could complete 
that for them. They also supplemented that with administrative 
records.
    And then, at the end, if neither of those worked, there 
would be a very small category left over in which they'll use 
statistical imputation.
    Ms. Tlaib. For all the panelists, you should know, given 
the low self-response numbers in Detroit, the process needed to 
count by 100,000 nonresponding households, and so, that means 
organizing boots on the ground and doing that stage that Mr. 
Mihm talked about.
    The Census Bureau, under-resourced, of course, as we all 
know, closed outreach offices, multiple kinds of outreach 
programs. In Detroit, multiple Census enumerators actually have 
come forward--to Director Mihm and everybody on the panel, 
they've alleged that the Bureau did not follow proper protocols 
or provide them with necessary supports to count every person.
    I was there when one U.S. Census enumerator, Mr. Benson, 
had publicly said that he was a Census worker in Macomb County, 
which is a nearby county to my district in--which I represent 
Wayne County. The Census in Macomb County was being handled 
extremely well.
    He said that additional work was needed in Detroit. He 
specifically said, ``What I found was,'' quote, ``when I 
reached out to people, I knew working the Detroit Census, they 
had not even started yet.'' He also said, ``They are waiting on 
work and haven't received any cases.''
    Again, these are Census workers in Detroit, that was 
assigned to Detroit. One Detroit Census captain, Ms. Foster, 
also indicated shortcomings, she said, quote, ``As far as 
proxies, it was unsafe and unorganized. Some days, I didn't 
even get cases until 5 p.m., where I would put in my time from 
10 a.m. until 8 p.m.''
    Given that there are around 100,000 nonresponding Detroit 
households that needed to be contacted, there was no reason for 
the Census enumerators to not have work to do.
    So, Mr. Salvo, why is nonresponse followup so important 
when there are low self-response rates?
    Mr. Salvo. The self--self-response provides the best data. 
The research clearly shows this--Census Bureau's own research. 
Once enumerators go into the field, as was indicated just now, 
there are a whole number of options that can rule the day, so 
to speak. For example, use of administrative records to 
determine whether a unit is occupied or not, looking at Postal 
Service Records.
    Ms. Tlaib. Can I interrupt you?
    Mr. Salvo. Yes.
    Ms. Tlaib. I know what you mean, but, like--it is important 
for accuracy, and I think that's what you're trying to say, and 
these are the processes, but what if the processes weren't 
followed? I mean, I know of our mayor in the city of Detroit, 
myself and many others, are looking to see what the final 
number is. But, I mean, you know, this means a community like 
mine are going to get undercounted, because, obviously, they 
didn't deploy the same standards in Detroit that they did in 
the nearby Macomb County area that what--you know, again, is 
not, you know, a number of communities of color like it is in 
Wayne county.
    Mr. Salvo. Low self-response does lead to a higher 
probability of undercount, no question. That is--has been 
established. And what we have to figure out, though, is 
whether--every Census has people who come forward. The metrics 
that were mentioned before that they're endorsed by the 
American Statistical Association, by Census Advisory Committee, 
will give us a look into that world. It's called paradata is 
what it's referred to, data about the process.
    That information will give us a glimpse to what you're 
talking about. That is one of the reasons why we have to get 
it, because, if we're going to have confidence that Detroit was 
properly enumerated, we need to get our hands on that 
information, and that will tell us----
    Ms. Tlaib. Thank you.
    Mr. Salvo [continuing]. The story.
    Ms. Tlaib. Also, Chairwoman, if I may--I know we have to 
go. I would love to work with you directly in making sure, 
again, the information is going to come out. It looks like Mr. 
Salvo is waiting for that information to come out. I really 
urge our committee to play a very, very key leadership role, 
because I do think what happened in Detroit was intentional on 
the part of this administration, and not doing it properly, and 
having enough folks on the ground to be able to get folks 
work--again, 51 percent nonresponse rate, and for them not to 
have enough work, or have enumerators sitting around for hours, 
Madam Chair, I just do think that we need to fully investigate 
that so it's not repeated again.
    Chairwoman Maloney. That's a good point. The gentlelady's 
time has expired.
    Our last questioner is Vice Chair Jimmy Gomez. You're now 
recognized.
    Mr. Gomez. Thank you, Madam Chair.
    I really appreciate that we're having this hearing. The 
Census is something that we cared about since--since I got to 
Congress and something we've been working on, and a lot of my 
worst fears came true.
    My district, it's the 34th congressional District in 
downtown Los Angeles, east side, lowest response rate of any 
congressional district in California, lowest one, and it's 
probably one of the lowest ones nationwide.
    So, we have been concerned, and we've been asking for 
documents from the Census Bureau, or the Commerce Department 
time and time again. And, to get the documents and hear about 
the issue from the press is really disheartening.
    So, I have some questions that I want to kind of get into 
regarding--from a GAO perspective.
    So, Mr. Mihm, has the Census Bureau provided all the 
information to GAO that you requested about the data anomalies 
discovered by career staff at the Bureau?
    Mr. Mihm. No, sir, they have not. It's the--and it's not so 
much the Census Bureau. Our understanding from senior Census 
officials is that it's under review by the general counsel at 
Department of Commerce and the Department of Justice as being 
bound up with the litigation.
    Mr. Gomez. Has the Bureau provided details about the 
number, type, and complexity of the problems that they have 
identified?
    Mr. Mihm. No, sir, they have not, for--again, for those 
same reasons.
    Mr. Gomez. Is this the first time the Census Bureau or, you 
know, Department of Commerce has withheld information or 
declined to answer questions from GAO about the 2020 Census?
    Mr. Mihm. There is always back and forth between GAO and 
the agencies about what's pre-decisional and all the rest. This 
has certainty been--what I can say is that it has gotten more 
problematic in recent months and, certainly since the middle of 
the summer, been very difficult to get information.
    We have not been flat-out denied anything, but things are 
taking an extraordinary amount of time. For example, the re-
plan that was announced in August, we're still waiting for 
detailed information on that.
    Mr. Gomez. On the re-plan of which part? The----
    Mr. Mihm. I'm sorry. The decennial, and, in particular, how 
the Census Bureau was going to be able to take what had 
originally been a 150-day planned processing, then went down to 
90, and now, if they meet the statutory deadline, will be 77 
days. And we just wanted to say, How are you going to be able 
to do that? And we're waiting for that information as well. 
Again, that's not the Bureau.
    Mr. Gomez. So you're----
    Mr. Mihm. That's with the Commerce.
    Mr. Gomez. So you're awaiting for information on the plan 
that was supposed to--they were supposed to explain it ahead of 
time, right, before they did it, and they never provided--it's 
over, right? The count's done, and you still haven't received 
any of that information?
    Mr. Mihm. Right.
    Mr. Gomez. I find that----
    Mr. Mihm. Sir, I'll give you one particular example that's 
important for us, is that, you know, the Census Bureau has 
state subject matter experts that review the Census data each 
decennial. Last time, they--on the basis of these reviews, 
every single state had to have their numbers rerun. And that 
doesn't mean that there were errors in every one, but they 
identified questions or things that they--that were of 
sufficient concern that they reran the numbers.
    The time available for these internal Census state-level 
experts has been reduced this time around. We want to know 
what, if anything, has been cut out of that, or what are they 
doing to make sure that it will still be a quality review? 
Again, we're waiting on the Department of Commerce.
    Mr. Gomez. I'm glad you brought it up, because some folks 
in my state have--California have mentioned that state review 
by the demographers, and they're really concerned about how 
that's going to impact. So, thank you for bringing that up.
    And we know, in the past, GAO has provided recommendations 
to the Bureau to help the Bureau better address their 
workflow--workflow schedule, transparency, and prioritization. 
Over the past few years, how many recommendations has the GAO 
given to the Census Bureau?
    Mr. Mihm. Yes, we've had over 120 recommendations just on 
the decennial Census, sir.
    Mr. Gomez. OK.
    Mr. Mihm. I'm happy that the great majority of those have 
been accepted by the Census Bureau, and we've been able then to 
make some substantive improvements as a result of that. And 
that's the point to the--you know, getting us access to the 
information. It's helpful to us. It's good from a transparency 
standpoint, but it also helps us identify targeted and specific 
improvement opportunities, which our experience has shown leads 
to an improved Census.
    And so, this isn't just kind of geeky access kind of 
issue----
    Mr. Gomez. Right.
    Mr. Mihm [continuing]. Between, you know, or an Article I, 
Article II issue. This helps us actually help the Bureau 
improve the undertaking of the Census.
    Mr. Gomez. And you mentioned they accepted--do you know how 
many--do you have a rough number they have accepted and 
implemented of your recommendations?
    Mr. Mihm. Of those 120, over 90 of them have been accepted, 
and there is a number of them that are outstanding. That is--
the report that we're issuing today that talks about the need 
for the transparency on the data that we've been discussing all 
throughout this hearing. That's one where the Commerce 
Department has accepted that recommendation, and so, we're 
hopeful that it will be implemented as well.
    Mr. Gomez. Yes. Well, thank you so much. And I know GAO 
doesn't do--investigate just to cause problems or to play 
gotcha, it's to improve the process. So, I want to thank you.
    I also applaud the chairwoman's efforts to obtain the 
critical documents from Department of Commerce. I would also 
like to ask if the committee could send a letter requesting 
information that GAO is seeking as well. There is no reason 
whatsoever that this committee should not know exactly what's 
going on within the Census Bureau's data processing operation, 
as well as the state demographers when it comes to their 
request for information and how that's impacting, how much 
information they've gotten, what has been cut out.
    Madam Chair, we know that Secretary Ross was withholding 
the documents from us, and he basically admitted that they are 
concealing them from the judiciary. So now we are also hearing 
that it is withholding some documents from GAO. I think we need 
more transparency. I applaud, once again, the chairwoman's----
    Chairwoman Maloney. Thank you. The gentleman is out of 
time. The gentleman's time has expired, but, before we go to 
close, I want to give Mr. Comer a chance to offer any closing 
thoughts. Mr. Comer, you are now recognized.
    Mr. Comer. Well, thank you, Madam Chair.
    Again, it's always our responsibility to hold hearings to 
ensure the integrity of the 2020 Census. It's unfortunate that 
we didn't have any witnesses from the Trump bureau, current 
staff, employees of the Census Bureau. I think that all the 
data that we've been given proves that everything is going 
according to plan.
    And I applaud Director Dillingham. I think he's been 
transparent with both the Democrats and Republicans on the 
committee. I look forward to getting that Census data, and 
hopefully, we'll be able to do what a majority of Americans 
want. We'll have a true, accurate count of every single person 
in America, and we will have a count that is used for 
congressional reapportionment that excludes all undocumented 
immigrants.
    That's what the American people want. That's what our 
position is as a minority on the Oversight Committee, and I 
hope that we will be able to achieve that.
    With that, Madam Chair, I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The message from today's witnesses is loud and clear. The 
2020 Census is in grave danger. Census experts testified today 
that data errors identified by career officials at the Census 
Bureau are serious and must be fixed. They warn that if the 
Trump administration cuts short the process to fix these 
problems, the Census count risks being inaccurate and 
incomplete.
    We called this hearing because the Trump administration 
refused to share information with this committee about these 
critical data errors.
    We had to learn about these major problems from reading the 
newspaper. When we asked for documents about these problems, 
the Commerce Department blocked them. Thankfully, we were able 
to rely on other sources to get at least some of these internal 
documents.
    So just to recap, we went to Secretary Ross yesterday, and 
we gave him one week to produce a complete and unredacted set 
of documents we requested last month. If he does not, then he 
could very well face a subpoena.
    As I said earlier, we hope he complies voluntarily, but I 
am open to calling Secretary Ross to testify under oath before 
this committee if he does not produce the documents that we 
requested.
    In closing, I want to thank our panelists for their 
remarks, and I want to commend my colleagues for participating 
in this important hearing.
    With that, without objection, our members have five 
legislative days within which to submit additional written 
questions for the witnesses to the chair, which will be 
forwarded to the witnesses for their response.
    I ask our witnesses to please respond as promptly as you 
are able.
    This hearing is adjourned, and we are off to a vote. Thank 
you.
    [Whereupon, at 1:05 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
